<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Reed, Pryor, Shelby, Alexander, 
and Murkowski.

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

STATEMENT OF HON. GARY F. LOCKE, SECRETARY


            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. The Subcommittee on Commerce, Justice, 
and Science of the Senate Appropriations Committee will come to 
order.
    This is our first hearing on the fiscal year 2010 
appropriations for this subcommittee and for the 111th 
Congress.
    Today, we are beginning with the Commerce Secretary, Gary 
Locke. Secretary Locke brings an incredible background and has 
an incredible agency to do it.
    First of all, I believe that President Obama made a very 
good pick. Secretary Locke was formally the Governor of the 
State of Washington. He is well known for his commitment to 
innovation in his own State, to being a stickler for far-
reaching management, and really comes with a commitment to 
innovation and experience in dealing with the Pacific Rim where 
so much of the future of the economy is tied.
    He has a compelling personal narrative as well, and we are 
just glad to have him.
    The Commerce Department itself is a very unique agency, and 
it was created to promote commerce, but the commerce of the old 
century is not the commerce of the new century. This is why the 
Secretary, bringing a very forward-looking viewpoint and a 
President who has put the resources in, put the people in, 
really wants to have that commitment.
    This should be the innovation agency. It should be the 
agency that really fosters the idea of an innovation-friendly 
Government, whether it is ensuring that people do not stand 
forever in order to get a patent, or that we protect our 
intellectual property and we view it as part of our homeland 
security. Additionally, agencies like the National Institute of 
Standards and Technology develop the standards for the new 
ideas and the new technologies so that our private sector can 
invent the new products to create jobs here and compete in the 
world.
    We also know that the agency is being called upon in the 
area of NOAA, which is so important to providing jobs to us in 
the coastal States--not providing jobs, but overseeing those 
things that impact on jobs. And we all know every single 
Senator depends on NOAA, whether it is to warn us of tornadoes, 
hurricanes, or to provide the information that farmers, 
factories, and people need. We also know that it is all part of 
green science which President Obama is advocating.
    Last but not at all least, it also has the important Census 
Bureau, and we in this committee believe that everybody counts 
in this country and everybody should be counted. So these are 
the big jobs of this agency.
    But we have had unrealistic funding for science programs, 
very little funding for technology and manufacturing 
partnerships, and then there have been really incredible 
management and cost overrun issues in terms of the NOAA 
satellites and also the census.
    This hearing today will be reviewing both the 
appropriations request and also what this Secretary wants to do 
with accountability.
    We know that the Department of Commerce was allocated 
sufficient funds for the stimulus package. We will be asking 
both today and in the days ahead how is the stimulus really 
promoting commerce in our country on issues like broadband and 
increased funding.
    But we also want to see increased accountability on the 
management issues facing the Commerce Department. The primary 
one that has such an immediate urgency is the 2010 census. The 
other has been the poor oversight of NOAA's satellite programs, 
and then both with this Secretary and his predecessor, our 
ongoing conversation about the need to reform the patent and 
trademark process. While our friends in Judiciary oversee 
patent law, we have to make sure there is a Patent Office 
infrastructure so that we have an innovation-friendly 
Government.
    Once again this year, I am pleased to say my ranking member 
will be Senator Richard Shelby. Senator Shelby and I have 
served in both the House and the Senate together. We have 
worked on this subcommittee now for more than 4 years, and we 
bring a spirit of bipartisanship, absolute civility and 
cooperation and consultation, and we intend to continue that. 
We believe that when we work together, we govern best.
    I would like to just say a few words now about the census. 
We take our constitutional obligation very seriously to have an 
accurate census. In 2009, we provided $3.14 billion to do it, 
$2.4 billion through the regular appropriations process and $1 
billion in the American Recovery Act. Senator Shelby and I have 
deep, deep concerns about the census management. We are 
concerned about the techno-boondoggle that has occurred, the 
tremendous loss of money, and the tremendous loss of 
opportunity. We learned that handheld computers could not be 
fully implemented. Census had to go back to pen and paper. 
Well, we might as well go back to the stylus and papyrus. I 
mean, this is the United States of America. It is being 
conducted under the Commerce Department, which is supposed to 
be the innovation agency, and we cannot get a handheld computer 
to work right to go knock on a door and ``say are you the 
person that really lives here?'' So we are really cranky about 
this.
    Moving beyond cranky into really absolute frustration is 
the accountability at the Patent and Trademark Office. We know 
that we have to have a well functioning Patent Office. My State 
is not only home to so much of our biotech innovation, the home 
to NIH and FDA, but a vibrant private sector that develops 
biotech companies as well.
    If we had our biotech executives here, they would say we 
stand in two lines in order to move our research into the 
clinical area. We stand in the FDA line for safety and 
efficacy. We want to be able to do that. But we also stand on 
the PTO, the Patent Office, and while we are standing in line, 
waiting sometimes 5 years, other people are in line overlooking 
our shoulder stealing our ideas. We cannot have that. The 
biggest intellectual theft in the world is going on, and it is 
because we have a stagnant operation there.
    So we have talked about reform. The talk is over. Now it is 
time for action.
    Then we have the NOAA satellite situation. Satellites at 
NOAA account for 25 percent of their total funding. Satellites 
are critical to predicting and warning about weather and 
observing changes in the Earth's climate. With an expected $1.3 
billion request, we want to get value for our dollar. We have 
now triggered a Nunn-McCurdy-like process to get our satellites 
under some type of fiscal discipline, and we need to know how 
is the Department going to handle the independent 
recommendations that have been made to put it back on track.
    We know you have a commitment to these. We know, Mr. 
Secretary, you have a commitment to it. We know that the 
President has a commitment to it. You bring a great deal of 
management know-how. We want to make sure we put the money in 
the checkbook in order to be able to accomplish these goals of 
ensuring jobs in America and saving our planet and also 
counting the people that are in our country so we know who we 
are, where we are and where we need to go.
    I would like to now turn to my able colleague, Senator 
Shelby, for his opening statement.


                 STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. Thank you, Madam Chairwoman. Welcome, Mr. 
Secretary.
    As Senator Mikulski has said, we have worked extremely well 
together on this subcommittee sharing many of the same goals 
and expectations for the agencies that this committee oversees. 
Senator Mikulski, I am pleased to serve beside you once again, 
and I look forward to working with you in a bipartisan fashion.
    Mr. Secretary, as I just said, welcome to the committee. I 
look forward to learning more about the soon-to-be-released 
2010 budget request and look forward to working with you in the 
years ahead.
    The Nation relies heavily on the Department of Commerce to 
maintain America's competitiveness within the markets around 
the world. The Department provides revenues to promote the 
products and services of U.S. businesses and then helps to 
level the playing field by expanding, strengthening, and 
enforcing our international trade agreements. Through the 
Department of Commerce, our country is able to maintain high 
technical standards as well as staying on the cutting edge of 
scientific research, all of which, Mr. Secretary, as you know 
well, are fundamental to our Nation's leadership in the global 
market.
    The Department of Commerce plays a vital role in our 
Federal Government and is in dire need of a leader to oversee 
the programs and agencies that are in distress. I believe they 
have found one. Within the past year alone, we have learned of 
failures at the Census, cost and schedule overruns within 
NOAA's satellite acquisition programs, insufficient fee 
collections at the Patent and Trademark Office, as well as 
numerous IT failures and mismanagement cues.
    The most serious looming crisis is the census crisis, which 
Senator Mikulski alluded to. Time is running out and there is 
great uncertainty for what was predicted to be the most modern 
and accurate census ever conducted. Census managers, Mr. 
Secretary, spent 8 years struggling to automate the information 
collection process by implementing the use of handheld devices 
that would produce more accurate data to save time and tax 
dollars. Managerial failures and incompetence have caused those 
plans to be scrapped and the census will once again be taken, 
it is my understanding, with paper and pencil. The price tag 
for this ineptitude raises the cost of the 2010 census.
    I am also concerned with the potential for political 
mischief in the execution of the 2010 census. The 
administration's announcement that the census would receive 
direct oversight by the White House staff is troubling. 
Statistics collected by the census play a critical role in how 
important decisions are made, including how over $300 billion 
in Federal funds are distributed annually. Mr. Secretary, given 
the broad reach of the data and how it influences the direction 
of these funds, the 2010 census must remain free of political 
tampering.
    The nominee for Census Director previously advocated the 
use of mathematical estimates, known as sampling, to lazily 
back-fill and inaccurately represent the count of our Nation's 
residents. This approach was reviewed by the Supreme Court 
during the 2000 Census, and if advocated again for use in the 
future, a political party could disproportionately steer 
Federal funding to areas dominated by its own members. This 
could shift billions of Federal dollars over the next years 
from some parts of the country to others because of population-
driven spending formulas.
    By allowing sampling, some States could also potentially 
end up with more Members of Congress at the expense of others. 
By overcounting in one State and undercounting in another, 
manipulation could take place solely for political gain.
    The census should be conducted in a fair and accurate 
manner for all political parties and people using the best 
methods to determine the outcome. The 2010 census is not an 
estimate, but a constitutionally mandated count of the entire 
population.
    Mr. Secretary, one of the more important agencies under the 
Department of Commerce to my home State of Alabama is NOAA, 
which Senator Mikulski has also referenced. The gulf coast 
still lacks the infrastructure, research, and support from NOAA 
that other regions of the country have perpetually received. 
Just this past Sunday, at least 10 tornadoes touched down in my 
State of Alabama, killing two people.
    You see the chart here, showing billion-dollar climate and 
weather disasters across the United States from 1980 to 2008. 
Look where most of them were. In the Southeast.
    This NOAA chart--and that is their chart--shows the 
vulnerability of the southeastern United States to weather-
related disasters. It plots the largest instances of billion 
dollar weather-related catastrophes that have occurred in the 
United States since 1980. The loss of life and the destruction 
of property from hurricanes and tropical storms account for 
more than half of all damages, $367 billion. If we add the cost 
of other weather events, such as heat waves, droughts, and 
flooding, the cost nearly doubles to $652 billion.
    While not all of these events, Mr. Secretary, are limited 
to the Southeast, NOAA's own research shows that the Southeast 
experiences more severe weather events than any other part of 
the country. Yet, federally funded climate and weather research 
in the region has lagged.
    To start to balance this, last year, working with the 
chairwoman, I provided funding for NOAA to work with the 
Southeastern universities to establish the Cooperative 
Institute for Southeast Weather and Hydrology. I am hopeful 
this will be the beginning of a coordinated effort to better 
understand the dynamics of weather and hydrology in the region 
and bring the citizens of the Southeast a semblance of balance 
in emergency forecasting and research services equal to those 
provided by NOAA in the Midwest.
    Mr. Secretary, I am also disappointed in the Department's 
lack of oversight on NOAA's satellite programs. NOAA is 
spending billions of dollars to develop two satellite systems 
that provide critical weather and environmental data, the 
National Polar-Orbiting Operational Environmental Satellite 
system, NPOESS, and Geostationary Operational Environmental 
Satellite-R series, GOES-R.
    The NPOESS satellite system was supposed to cost $6.5 
billion for six satellites. I know you were not here then. It 
is now estimated that taxpayers will be handed a bill for $13.9 
billion for only four satellites that are less capable than 
originally planned. Something is amiss. This program is a 
complete failure for NOAA and an even bigger failure for the 
taxpayers.
    It is also my understanding, Mr. Secretary, that there are 
internal deliberations at the Department of Commerce to reward 
the contractor with the option to build two additional NPOESS 
satellites. My question to you to consider is how can you 
reward a contractor that has blatantly failed in its mission 
and cost the taxpayer billions in cost overruns. In other 
words, how do you evaluate that and how do you reward failure? 
If you choose to go forward with this effort, I believe that I 
will oppose it.
    The second satellite program is also a grave failure. The 
GOES-R satellite procurement was a $6.9 billion program for 
four satellites which has now ballooned into a $7.7 billion 
program for only two satellites with a delivery date 6 years 
behind schedule.
    The acquisition history of these two satellite systems, as 
well as the failed acquisition of the census handhelds, 
demonstrates that management and acquisition oversight does not 
exist at the Department of Commerce. I want to work with you to 
ensure that you have the tools necessary to perform contract 
oversight so that the Department can correct the agencies it 
manages and avoid the mistakes in the future.
    Finally, Mr. Secretary, no NOAA construction funding was 
provided to the Gulf of Mexico within the stimulus spending 
bill, while the Pacific Coast received more than $262 million 
in construction funds. While I am happy for the Pacific Coast 
communities, I want to know how and why the gulf coast was 
neglected and look forward to hearing your explanation.
    I am also looking forward to hearing your thoughts on the 
Department of Commerce's budget request and look forward to 
working with you as the committee crafts the 2010 budget.
    Thank you, Madam Chairman.
    Senator Mikulski. The committee wants to acknowledge that 
Senator Alexander from Tennessee is here. Senator, if you would 
be kind enough to withhold your statement until Secretary Locke 
makes his, then we will give you extra time to say a few words 
and go into your questions. Is that agreeable to you, Senator?
    Senator Alexander. Yes. I am going to have to leave 
shortly. But Senator Pryor is here----
    Senator Mikulski. Yes, but you came before Senator Pryor. 
We also want to note that Senator Pryor is here, our newest 
member to the committee. You are way down there, but you are 
moving up pretty fast.
    Senator Pryor. Thank you.
    Senator Shelby. But we have all been down there, have we 
not?
    Senator Mikulski. We have all been down there. And when we 
hear from Secretary Locke, we all know we have been down that 
road before too.
    Secretary Locke, why don't you present the President's 
request to us and then we will jump right in with our 
questions?


                  STATEMENT OF SECRETARY GARY F. LOCKE


    Secretary Locke. Chairman Mikulski, Ranking Member Shelby, 
and distinguished members of the subcommittee, Senator 
Alexander and Senator Pryor, I am pleased to join you today to 
talk about the Department of Commerce. I would like to make 
just a very brief opening statement while also submitting more 
comprehensive written testimony for the record.
    It is my top priority to make certain that the Department 
of Commerce plays an integral role in President Obama's efforts 
to help America reboot, retool, and reinvent. The President's 
budget reflects the Department's broad mandate to strengthen 
the Nation's economy, promote innovation and environmental 
stewardship.
    More than that, I have challenged our employees to 
establish the Department of Commerce in the eyes of the Nation 
as a voice for main street businesses and family wage jobs and 
to work to grow local economies by fostering innovation and 
opening markets to U.S. products and services.
    To that end, the President's 2010 budget for the Department 
includes some $13.8 billion in discretionary funds. This is an 
increase of $4.5 billion over the 2009 fiscal year 
appropriation of $9.3 billion, not counting Recovery Act 
appropriations. The large increase is due primarily to the 
decennial census, with extra funding of $4.1 billion.
    While most of the details of the 2010 request are still 
under development, I am happy to share some highlights, and of 
course, I look forward to providing the rest in the near 
future.
    This budget contains the resources necessary to complete 
the 2010 census effectively and on time, counting everyone 
once, only once, and in the right place. The allocation 
combined with the $1 billion that the Congress provided in the 
Recovery Act will enable us to hire nearly 1.5 million 
temporary workers over the next year. And I want to assure you 
that we have instituted numerous management and oversight 
changes in response to findings by the Government 
Accountability Office and our Inspector General and the 
concerns of the Congress.
    And I want to indicate to Senator Shelby that we have 
absolutely no intention, no plans whatsoever to use any type of 
statistical sampling in the reapportionment issues or the 
apportionment for the Congress. We will follow the Supreme 
Court ruling that statistical sampling is not allowed and that 
we will have a physical hard count of people.
    The request includes more than $1.3 billion for the 
National Oceanic and Atmospheric Administration satellite 
programs that capture key weather forecasting and climate data, 
as well as resources to advance climate and ocean research and 
support implementation of the Magnuson-Stevens Act.
    Our weather satellite programs, as have been noted by the 
chair and by the ranking member, have been the focus of much 
concern by the Congress and oversight committees. Progress is 
being made to implement the recommendations of the GAO and the 
Inspector General and lessons especially from the NPOESS 
program have been incorporated with respect to the GOES-R 
program, but we still have challenges and much more work to be 
done.
    The President's plan includes doubling the funding over 10 
years for the National Institute of Standards and Technology's 
research activities that are critical to the Nation's 
technology infrastructure, as well as $125 million for the 
Hollings Manufacturing Extension Partnership program and $70 
million for the Technology Innovation Program.
    The Economic Development Administration will provide $50 
million in grants to support the creation of regional 
innovation clusters and also $50 million to create a nationwide 
network of public-private business incubators to promote 
entrepreneurial activities in distressed areas.
    The President's budget also supports the International 
Trade Administration's efforts to promote exports and eliminate 
barriers to the sale of U.S. products and services and to 
continue to give the U.S. Patent and Trademark Office full 
access to its fee collections.
    I want to indicate that I have met with labor 
representatives of two of the major employee organizations 
representing POPA, as well as the unit that represents the 
trademark employees. We simply must work together with the 
employees and management and the stakeholders to drastically 
reduce the time it takes to process patents and to have patents 
issued. Otherwise, we are denying a key part of our economic 
recovery. It is important to get these innovations 
commercialized as soon as possible and to allow the American 
people to benefit from a lot of these technologies, whether 
drugs or innovations or products.
    I want to thank you for entrusting the Department with 
nearly $8 billion in Recovery Act funds. We have provided our 
proposed spend plans and will keep you informed of our 
progress.
    The National Telecommunications and Information 
Administration, NTIA, will have the biggest challenge: 
implementing the $4.7 billion to improve broadband deployment.
    Besides planning for the next year and making sure that we 
use current resources effectively, I am focused on addressing 
the key management issues facing the Department, and these 
include conducting a successful 2010 census, improving and 
shortening the patent process, managing our satellite 
deployment and acquisition program, and strengthening our 
overall information technology infrastructure within the 
Department of Commerce.


                           PREPARED STATEMENT


    Your support has been and will be critical to our efforts, 
and I appreciate the chance to hear your views on these 
subjects.
    Thank you again for the opportunity to come before you 
today, and I look forward to your comments and your questions. 
Thank you very much.
    [The statement follows:]

                  Prepared Statement of Gary F. Locke

    Chairwoman Mikulski, Ranking Member Shelby, and distinguished 
Members of the Subcommittee, I am pleased to join you today to talk 
about the Department of Commerce. It is a privilege to serve the 
American people and I am grateful for the confidence President Obama 
has in my ability to lead this great agency. While this is my first 
opportunity to work with you as Secretary, I realize that the 
subcommittee has a critical role in achieving the Department's mission.
    The Commerce Department has a broad mandate to strengthen the 
Nation's economy, and promote innovation and environmental stewardship. 
The means by which we achieve these goals are vast and varied, and the 
37,000 public servants under my watch work daily to achieve them. As 
announced in February, the fiscal year 2010 President's Budget includes 
$13.8 billion in discretionary funds for the Department, a major 
increase over fiscal year 2009 due primarily to the Decennial Census. 
We look forward to announcing the full details of the President's 
Budget in the near future.
    This budget contains the resources necessary to complete the 2010 
Census effectively and on time, with an increase of more than $4 
billion. Combined with the $1 billion Congress provided in the American 
Recovery and Reinvestment Act (ARRA), these resources will enable us to 
conduct the Nation's largest peacetime mobilization by hiring nearly 
one and a half million temporary workers. The Census Bureau will also 
focus extensive advertising and partnership activities on hard-to-reach 
populations, to encourage a high response rate. All of this will be 
done with the goal of the most complete and accurate count of the 
Nation's population to date.
    The request provides more than $1.3 billion for satellites that are 
essential to the National Oceanic and Atmospheric Administration's 
(NOAA) ability to capture weather forecasting and climate data. 
Resources are also provided to advance climate and ocean research, and 
support implementation of the Magnuson-Stevens Act and its requirement 
to end overfishing by 2011. These resources build upon the $830 million 
provided in the ARRA and will enable NOAA to meet critical mission 
needs.
    This budget supports the National Institute of Standards and 
Technology's (NIST) advanced measurement and standards activities that 
are critical to the Nation's technology infrastructure. The President's 
plan for investments in science includes doubling research funding 
within NIST over 10 years. The request includes $125 million for the 
Hollings Manufacturing Extension Partnership program to enhance the 
competitiveness of manufacturers by facilitating the adoption of 
efficient manufacturing processes. The Technology Innovation Program 
will receive $70 million to invest in high-impact research that will 
tackle critical national needs and advance innovation. These two 
programs had been proposed for termination in the fiscal year 2009 
President's Budget. In addition, the ARRA includes $220 million for 
NIST's scientific research activities and lab equipment and $180 
million for construction of NIST facilities.
    The Economic Development Administration (EDA) will support 
economically distressed communities in their efforts to develop 
strategies for long-term growth with higher-skilled and higher-wage 
jobs. EDA will provide $50 million in regional planning and matching 
grants to support the creation of regional innovation clusters. EDA 
will also use $50 million to create a nationwide network of public-
private business incubators to promote entrepreneurial activities in 
distressed areas. Oversight of the $150 million provided to EDA in the 
ARRA for economic adjustment assistance and infrastructure funding, 
with priority for areas experiencing severe job losses, will remain 
active during fiscal year 2010.
    In fiscal year 2010, the National Telecommunications and 
Information Administration (NTIA) will continue its important work of 
managing the Federal use of spectrum and performing cutting-edge 
telecommunications research and engineering, including resolving 
technical telecommunications issues for the Federal Government and 
private sector. In addition, NTIA will be administering the $4.7 
billion provided in the ARRA to expand broadband deployment and 
adoption, and will soon have completed the coupon program for the 
transition to digital television funded in the ARRA and the Digital 
Television Transition and Public Safety Act.
    The President's Budget will also fully support the International 
Trade Administration's efforts to promote exports from small businesses 
and eliminate barriers to sales of U.S. products, and give the U.S. 
Patent and Trademark Office full access to its fee collections, which 
will provide resources to strengthen the Office's ability to encourage 
innovation and safeguard the value of intellectual property through 
more efficient and higher quality patent and trademark examinations.
    While most of the details of the fiscal year 2010 request are still 
under development, I would also like to discuss and listen to your 
perspectives on the key management challenges facing the Department. 
Our Inspector General has identified several issues for my immediate 
attention, including overcoming the setbacks experienced in 
reengineering the 2010 Census, better positioning the Department to 
address information security risks, effectively managing the 
development and acquisition of NOAA's environmental satellites, 
establishing a safety culture at NIST, and ensuring NTIA effectively 
carries out its responsibilities for the digital transition. I'm 
pleased to report some progress in those areas, as the Census has 
entered its address canvassing phase using handheld computers, and NTIA 
has eliminated its coupon backlog since receiving ARRA funds, for 
example.
    Some challenges are unique to Commerce, and some are common in the 
Federal Government and the Nation as a whole. The Department has to 
upgrade its aging infrastructure, and effective management is critical 
to these efforts. We are very pleased that the administration plans to 
use ARRA funds appropriated to the General Services Administration for 
the next stages in the multi-year renovation of our headquarters, the 
Herbert C. Hoover Building.
    In closing, since its creation the Department of Commerce has 
played a pivotal role in a wide range of efforts important to the 
Nation. While we are currently facing challenging economic times 
domestically and internationally, to quote President Obama ``the time 
has come to usher in a new era of responsibility that lays a new 
foundation of growth on which we can renew the promise of America.'' I 
am excited about leading the Department into that era.
    Thank you for the opportunity to come before you today, and for 
your continuing support of the Department of Commerce and its programs. 
I look forward to your questions.

    Senator Mikulski. Thank you, Secretary Locke.
    We want to acknowledge that our colleague, Senator 
Alexander, is one of the candlelighters at the Holocaust 
Memorial remembrance that will occur very shortly. So Senator 
Shelby and I, as a courtesy, would like to turn to Senator 
Alexander. We know you have a very poignant job to do in a few 
minutes. So why do you not go first and then it will come back 
to us.
    Senator Alexander. That is a great courtesy, Madam 
Chairman. Senator Shelby, I thank you. I will only make two 
comments and then turn it back to the chairman.
    Well, first, I thank Governor Locke for coming by to visit. 
I told him, Madam Chairman, that I always welcome the addition 
of Governors to the Senate and to the administration. I think 
it brings a can-do spirit to the Nation's capital that we 
always like to see.
    And I look forward to working with you. This is a very 
important subcommittee. It works well together, focuses on our 
competitiveness and the implementation of the America Competes 
Act, which we all worked on and passed in 2007, which has 
received some additional funding this year. But we would like 
to keep the parts of that that belong in the Department of 
Commerce moving at a good rate. There is a very bipartisan 
focus on that and strong support out in the country for those 
efforts.
    In that line, I am very supportive of NOAA's recent 
decision to locate its supercomputer for climate change 
research at the Oak Ridge National Laboratory. Governor Locke 
is well aware of Oak Ridge and of our national laboratory 
system since he comes from Washington State. I would say 
publicly what I said to him privately. I would invite you to 
visit Oak Ridge and see the computer operation there and see 
other activities that might fit within the Department's 
mission.
    Finally, I would like to encourage you and the 
administration to support the Colombia Trade Promotion 
Agreement and let us get that settled and behind us. I was glad 
to see the President in Latin America last week. Some of those 
countries are better friends of ours than others right now, and 
Colombia is one of our best friends. The Colombia Trade 
Promotion Agreement would end a one-way benefit for Colombia 
because most Colombian goods already enter the U.S. duty-free. 
We would like for ours to do the same. It tends to isolate us 
from them and forces them toward other countries in the world 
when we want to encourage a friendship.
    So it is good for American business, good for American 
farmers, good for our State, good for Washington State, all 
States. So I would hope that the President and you, working 
with the Congress, could find a way to make the Colombia Trade 
Promotion Agreement something that the Congress can agree to.
    So welcome to Washington. I look forward to working with 
you.
    I thank the chairman for her courtesy.

              REFOCUSING ON DEPARTMENT OF COMMERCE MISSION

    Senator Mikulski. We will be seeing you shortly, Senator.
    Secretary Locke, the first thing that I want to just 
acknowledge is that I am very proud of the fact that a 
substantial number of agencies within the Commerce Department 
portfolio are headquartered in my State. They are NOAA, NIST, 
and Census. And I had the opportunity to interact with the 
leadership there as well as the staff. I want you to know that 
throughout your agency, there are what I call the worker bees, 
those wonderful people that under the old pay scale were the 
GS-5s through the 15s. They really have kept our Government 
going. In some instances, they have had good leadership and in 
some instances not.
    In our hearings, we tend to focus on ``the problem 
agencies'' but I hope we also take a look at all of the 
agencies and acknowledge the tremendous assets that we have in 
our Civil Service population. When you go over to NIST, which I 
hope we will have a chance to go together, you will see a civil 
servant that is a Nobel Prize winner. A civil servant is a 
Nobel Prize winner, and he is on the job right now today not 
only winning prizes but thinking the thoughts to win the 
markets.
    That is why I was so pleased that you met with the Patent 
Office staff. We have to look at the fact that our workers are 
not problems, but they are part of the solution. I believe that 
some of the issues around contracting out, lack of resources 
and so on, were at times very demoralizing to our staffs.
    So, therefore, what I am saying to you, as we look at it, 
what we need to do is look at the mission of the agency, what 
it is that the President wants to do, but also we need to look 
at the three R's, which is to reinvigorate our Civil Service, 
and we do it by the right leadership, respect and resources. 
This is not hard to do but it takes a real commitment to do it.
    Then I think we need to refocus on the mission of the 
agency while we dig our way out of the problems, but also where 
it is working like at NIST and other agencies, we really need 
to keep the momentum going.
    So I just want to thank you for it. It was refreshing to 
hear that you met with the Patent Office workers there. So we 
are going to work with you on this.

                      CENSUS MANAGEMENT CHALLENGES

    But having said those sweet things, I have got to get to a 
problem child which is the census. We are very concerned about 
the census. My first question goes to the fact that we put 
money, working with Secretary Gutierrez and in the stimulus, to 
right the wrong. But what we would like to know now is what are 
the resources that it is going to take for you to be able to do 
the census. We have two issues: the short term, which is to 
make sure we get the census done, and then the step of 
procurement reform and what are we going to do about this 
contractor that had this cost-plus contract and which we are 
out billions of dollars.
    So can you tell us if we have the assurance that the census 
is going to be done right? What do we need to do to be able to 
help you do that?

                           COMMERCE EMPLOYEES

    Secretary Locke. Thank you very much, Madam Chair.
    With respect to your overall comments about reinvigorating 
and respecting our employees, as well as refocusing our 
mission, I first want to indicate that I have already been out 
to NIST and met with the employees and toured the facility and 
met with the great scientists that are there. I have also been 
out to the Census Bureau already and met with all the employees 
there and toured their facilities. I have not yet been to NOAA.
    But I do want to say that, first of all, the Secretaries 
come and go and the political leadership of these agencies come 
and go. They know that we come and go. And we know that they 
are there for many, many years and do outstanding work. I 
believe it is absolutely vital that in all of the challenges 
that we have and all the programs that we have, that we need to 
rely on the expertise, the sense of pride and professionalism 
of the employees to help us become more efficient, more 
effective, and to deliver these programs that are so badly 
needed in the heartland of America.
    Throughout the rest of America, it is story after story of 
local governments, State governments and businesses furloughing 
people, cutting benefits, eliminating jobs, laying people off, 
and people are very, very worried about their future. And we 
here in the Federal Government have an opportunity, a 
responsibility to execute our mission as efficiently and 
effectively as possible, as quickly as possible, and to get the 
economy going again providing good family-wage jobs throughout 
all of America.
    I am really proud of the great professionals that we have, 
career people throughout all the agencies of the Department of 
Commerce, and it is my mission, one of my goals, as you say, to 
reinvigorate them, to provide them the respect so that they can 
say with great pride that they are an employee of the 
Department of Commerce, whether it is Census, whether it is 
NOAA, whether it is NIST, whether it is EDA, that they can say 
with pride that they work at the Department of Commerce.

                      CENSUS MANAGEMENT CHALLENGES

    With respect to the Census, we have made a lot of changes 
with respect to management, with respect to oversight functions 
and programs at the Census, following the debacle over the 
handheld computers. The handheld computers were to have done 
two things: to provide automation as they verify addresses--and 
that is ongoing right now, and they still are using those 
handheld computers for that particular function, and it appears 
to be working well.
    The other function of the handheld computers was to do the 
actual knocking on the doors, the enumeration, to get to the 
folks that did not mail in the census questionnaire after April 
1, 2010. Because of problems there, that entire project was 
canceled, but costing us several millions of dollars of wasted 
funds.
    That to me is completely unacceptable. Throughout all of 
the contract programs and technology programs that we have in 
the Department of Commerce, I believe that we should not be 
paying people unless they have actually performed, and until 
they have actually performed, they should not get most of their 
payment. So I believe that we need to completely change our 
contracting procurement processes, whether it is for satellites 
or for handheld computers for census or whether it is just 
mainframe computers and technology within the Department of 
Commerce for everyday functions.
    We have also followed up on the suggestions and the 
recommendations of the Government Accountability Office, as 
well as our Inspector General. There are now monthly status 
reports that are given to the Secretary's Office, as well as 
OMB, but within the Census Bureau, they now have weekly reports 
focusing on high-risk areas with milestones and metrics so that 
senior management can see what is happening and to respond 
immediately.
    They also have a chief testing officer to oversee the 
testing efforts of these new programs and activities that have 
not yet been done before. Especially now that we are going back 
to paper and pencil, we have a whole bunch of processes that 
need to be evaluated----

                        ACCOMPLISHING THE CENSUS

    Senator Mikulski. Mr. Secretary, are you confident that, 
number one, the census is going to happen? Number two, you have 
to hire lots of people. This is going to take money. It is 
going to stretch the FBI. Tell us what is required because this 
is an appropriations hearing as well. It sounds like you have 
really been standing sentry over the GAO and other 
recommendations. What is it going to take to do it? Do you have 
adequate resources to do this? Do you need resources? What 
about this in terms of the security clearances needed?
    Secretary Locke. Well, with respect to the resources, we 
believe----
    Senator Mikulski. My time is running out on these 
questions. So I get 5 minutes to cover the whole Commerce 
Department.
    Secretary Locke. I believe that we do have the funds 
sufficient to conduct the census and we are monitoring it very, 
very aggressively. We feel that the President's proposal is 
sufficient.
    With respect to the security clearances, what has been 
happening so far is that the FBI has been able to provide us 
the FBI fingerprint checks and the criminal background checks 
in an expeditious manner without interfering with other 
functions of the FBI.
    It is a pilot right now. We will find out what is happening 
at the end of this current hiring process to make any 
recommendations with respect to the other million people that 
we will hire in the spring.

                         FBI BACKGROUND CHECKS

    Senator Mikulski. This subcommittee also funds the FBI, and 
we know that our FBI is really tremendously stretched. They are 
fighting organized crime. They are fighting terrorism. We have 
now asked them to take on the mortgage fraud area, et cetera. 
And at the same time, they have got to do all these security 
clearances.
    We are very firm that we must guard vulnerable populations 
against any potential predators that could be coming into their 
homes or their communities. So we want the background 
screening. We want the background checks. How that is defined 
we want to know about and then also about the resources. So if 
you are old, if you are a child, et cetera, we need to protect 
access to vulnerable populations. That is our job.
    How many people are you going to hire?
    Secretary Locke. Over a million people.
    Senator Mikulski. A million people. That is a lot to put on 
the FBI, the database, et cetera.
    Now, the FBI does not have a great technology record. This 
whole committee has been through a boondoggle with them to the 
loss of billions. They are now working with a private sector 
firm where their own data system and case management is 
tremendously improved, but they do not have an A-plus record. 
Okay? So let us not be in la-la land that all this is going to 
work.
    I believe in what President Reagan said, trust but verify. 
I trust that what the FBI told you is so, but we really want 
verification.
    And then second, if you are going to bring a million people 
on line and the FBI is not just sitting around waiting for its 
database to be used, we wonder then, as they come into the 
system, will this crash the system? What is this going to cost 
the system, et cetera? So we really need to be up on this now 
since now taking the census is going to be so much more labor-
intensive. The FBI has a spotty record on its own technology 
functionality.
    And number three, you cannot be screening a million people 
in a short period of time and not have issues. So we would like 
you to keep us abreast of both cost and operation.
    I have used my time. I would like to now turn to Senator 
Shelby.

                          CENSUS PARTNERSHIPS

    Senator Shelby. Thank you, Madam Chairman.
    Mr. Secretary, a lot of us were alarmed when it was 
discovered that the Census had plans for using ACORN as a 
partner in the 2010 census. ACORN employees, as you probably 
know, were found to be fraudulently registering voters for 
elections. Given ACORN's political history, a lot of us feel 
that the Census Bureau should not partner with organizations 
that have shown systemic problems with both accuracy and 
legitimacy.
    It leads me to this. What is the Department of Commerce and 
the Census Bureau, under your leadership, doing to ensure that 
groups such as ACORN are adequately investigated prior to their 
involvement in something as important as the 2010 census? And 
the next question, is the Census in desperate need of support 
as to be willing to take anyone and everyone who applies? Could 
that not be a dangerous path?
    Secretary Locke. Thank you very much, Senator Shelby.
    First of all, the Census will not be hiring anyone from 
ACORN. We use these so-called partners to get the word out and 
to spread the word about the need for people to respond and 
answer the questionnaires.
    Senator Shelby. How will that work? Just reassure me.
    Secretary Locke. Well, for instance, we have a maximum--I 
believe $2,999 that we are willing to spend to help 
organizations get the word out. We will not make any payments 
to those partnership organizations. We pay the bills whether it 
is to pay the rent of a hall for a town meeting or to print, 
using our materials, materials that they can pass out.
    Senator Shelby. But they will not be taking the census, 
will they?
    Secretary Locke. No. We control the hiring. We do not use 
any Government funds to subcontract with any organization to do 
any activity----
    Senator Shelby. You are not going to delegate it, in other 
words.
    Secretary Locke. We are not delegating anything to ACORN.
    Senator Shelby. To anybody.
    Secretary Locke. Or anybody.
    Senator Shelby. I like that.

                            NOAA SATELLITES

    NOAA satellites. What degree of confidence do you have in 
the new cost and schedule estimates? And if you are confident, 
tell us why since every other estimate has turned out to be 
grossly exaggerated. And what is the level of risk of 
continuity of weather and our climate data and what contingency 
plans are being considered? If you do not have this, you can do 
this for the record.
    Secretary Locke. I think we will have to give you a more 
detailed response.
    [The information follows:]

                               Satellites

    For the polar-orbiting satellites, the on-orbit and recently 
launched satellites are performing well and there is no immediate risk 
to data continuity for NOAA's weather and climate missions. We are 
concerned about the fragility of the constellation that begins to occur 
in 2013. This risk to data continuity occurs in the 2013 timeframe due 
to the schedule delays that the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) is facing.
    NOAA is placing highest priority on the acquisition of this system 
to mitigate this risk. NOAA will use data from NASA's NPOESS 
Preparatory Project (NPP) sensors to produce data that meet or exceed 
the data from NOAA-19 (our current operational satellite). We have 
plans in place to make operational use of the data from the NPP 
spacecraft by increasing the number of products NOAA had planned to 
generate from the NPP system as a risk reduction mission.
    NOAA has a contingency plan in the event there is a failure of any 
of its operational systems. This plan depends on using existing NOAA 
satellite assets, leveraging data from NASA and Department of Defense 
environmental satellites, and forging partnerships with international 
space agencies to acquire data needed to support NOAA's operational 
weather and climate mission. NOAA is also investigating opportunities 
to fly a mission with the legacy imager Advanced Very High Resolution 
Radiometer (AVHRR) in the event VIIRS continues to experience 
developmental challenges

    Senator Shelby. I know you are new there, and I believe 
from your background, you want to do a good job and you will do 
a good job. But you are going to have to get your arms around 
those costs there because ultimately, as Senator Mikulski has 
pointed out, you come back up here to the committee and we have 
trouble finding money if the costs keep going up and up in not 
just your agency, but the FBI, everywhere else because we will 
be allocated a finite amount of money to deal with this. You 
know? You spent two terms as Governor, so you can understand 
what we----
    Secretary Locke. There are very limited funds, and cost 
overruns in satellite programs only eat up into the dollars 
available for other programs.
    Senator Shelby. Great overruns, gross overruns. But you 
will get back with us on that.
    Secretary Locke. I will. And let me just say that the GAO 
has already done a progress report in April 2009 saying that, 
for instance, the GOES-R program has incorporated a lot of the 
lessons learned from the NPOESS program. Still a ways to go, 
but they have revised cost estimates. But the GAO still points 
out some concerns and has made some recommendations that we 
intend to follow to try to get a better handle on the satellite 
acquisition program.

                   DEVELOPMENT OF SUSTAINABLE SEAFOOD

    Senator Shelby. Mr. Secretary, you know very well about our 
fisheries and seafood, coming from Washington State and serving 
two terms as Governor there. Safe and sustainable seafood is 
vital to the U.S. economy, food security, and our livelihood. 
The development of a sustainable marine aquaculture industry 
will provide jobs for the commercial fishing industry, severely 
depressed by competition from imported seafood products.
    What research extension and marketing programs will the 
Department of Commerce provide to foster development in this 
area?
    Secretary Locke. Thank you very much.
    As our wild fishery stocks decline, it is very important 
that we are able to complement the wild stocks with 
aquaculture. NOAA really needs to engage in a program of 
research and setting up criteria and rules by which safe, 
environmentally sustainable aquaculture can operate, and right 
now we do not have any such rules, regulations, or guidelines. 
And that is something that must be done, given the fact that 
Americans want safe----
    Senator Shelby. Are you going to provide leadership there? 
Will you work with us on that?
    Secretary Locke. Yes. We intend to pursue this and to help 
develop those guidelines.

                          INTERNATIONAL TRADE

    Senator Shelby. Touching on international trade, Mr. 
Secretary, our long-term economic growth--and this is an area 
you have done a lot of work in--and job creation must include, 
I believe, an exporting component. In recent years, exports 
have only accounted--listen to this--for 12 percent of our GDP. 
In fact, we export less than many other of the major G-20 
nations.
    What can the Department and ITA do to help more United 
States firms begin exporting, realizing there is a big market 
in the world, and to further expand our Nation's exporting 
capabilities? I think that is crucial for the Department of 
Commerce.
    Secretary Locke. I think we really need to break down some 
of the silos that exist between some of the bureaus within the 
Department of Commerce. Trade, exports is not simply a function 
of the International Trade Administration, but also should be 
part of our Economic Development Administration working with 
companies, employers, large and small, on those opportunities 
for export and trade.
    Senator Shelby. Good. Thank you. I am through.
    Senator Mikulski. I hope you feel better.
    Senator Pryor, our newest member?

                          BUSINESS INCUBATORS

    Senator Pryor. Thank you, Madam Chairman. It is great to be 
here, and thank you for doing this today. I understand the time 
sensitivity, so I am going to keep my questions brief and 
really just focus on two areas.
    But first, let me thank you for coming to Arkansas last 
week. It was great to have you. Madam Chair, I think the first 
trip he made outside of the District was to Maryland to some of 
those facilities there, but the first trip out of the D.C. 
area, he came to Arkansas last week and we really appreciate 
it. Thank you for being there.
    Let me ask, if I may, about a comment you made about--I 
think you said $50 million for public-private partnerships and 
business incubators. I have a bill on science parks or 
technology parks or business incubators. Tell me how you 
think--is it $50 million a year? Is that what it is?
    Secretary Locke. Yes, it is.
    Senator Pryor. And tell me how you think the Department 
will use that money and what your criteria will be for that.
    Secretary Locke. Well, we are going to be developing the 
criteria, but really it is going to be looking at proposals 
from local communities where we would partner with those local 
organizations, economic development organizations, nonprofits, 
colleges, universities. Obviously, we want to help leverage our 
funds and be a complement to those local efforts. Obviously, if 
it is a science park, if people want to create a science park 
and use that as part of an incubator, that could be a very 
strong proposal.
    So we have no template, no cookie cutter approach, but 
general policies that we will draft, along with the grants that 
we now use, for instance, in the Economic Development 
Administration, competitive grants, but obviously, the more 
partnership at the local-State level that there are, then the 
stronger that proposal will be. Obviously, it is incumbent 
upon--even with regional clusters, that regions and 
municipalities and parts of the country focus on what their 
strengths are, what their dreams and aspirations are, and using 
the Federal dollars to help them achieve that mission.
    Senator Pryor. I am glad you are focused on that. In fact, 
the building you were in at the University of Arkansas at 
Little Rock on that campus where you did your town hall meeting 
actually has a component of it that is a business incubator, 
and it is exactly what you have talked about. It is a great 
example of a success story.

                BROADBAND TECHNOLOGY OPPORTUNITY PROGRAM

    Let me change gears, if I may, and ask about broadband, the 
BTOP, the Broadband Technology Opportunities Program. Can you 
give us a status report on that? Particularly I am wondering if 
you are working with States to try to find the right way to 
implement that and what your schedule might be on that.
    Secretary Locke. We have just closed the public comment 
period on how governments and the private sector and academia 
and policy people feel those broadband dollars should be 
distributed. It is roughly $4.7 billion out of NTIA, and then 
there are significant funds through the Department of 
Agriculture. Both Agriculture, Commerce, and FCC have been 
coordinating and trying to develop these policies with all the 
stakeholder input, over thousands and thousands of comments and 
ideas on how to distribute these dollars, ranging from direct 
distribution to the Governors and to the States, to a 
combination of direct distribution to the States, as well as 
grant proposals coming into the Federal agencies.
    We hope within a few months to announce the final criteria 
after receiving all of this stakeholder input, digesting all of 
that, and there will be, I do not believe, one-size-fits-all 
criteria. The unserved vary from State to State. So we need to 
figure out a program that has maximum flexibility but, I 
believe, accomplishes significant national purpose or national 
goals so that at the end of the day, people will look back and 
say that with the broadband funds, limited as they are, that we 
were able to accomplish some very significant milestones or 
achievements with respect to high-speed Internet service all 
across America.
    Senator Pryor. Thank you, Madam Chair.
    Senator Mikulski. But following up on Senator Pryor's 
question, when do you think you will issue the guidelines to 
apply for grants?
    Secretary Locke. We have submitted the spend plans to the 
Congress. It is our intent to have the guidelines finalized, 
made public to America sometime in the early summer of----
    Senator Mikulski. So if you are from Arkansas--like we in 
Maryland have the Maryland Broadband Cooperative, which is like 
a little TVA for broadband in our rural communities--when would 
they be able to apply for grants?
    Secretary Locke. It is our intent--we are all shooting for 
early summer 2009, and with the grants actually going out the 
door beginning in the fall 2009.
    Senator Mikulski. Okay, thank you.
    I am going to ask a few more questions. I just want to 
apprise my colleagues the Holocaust Memorial starts at 11 
o'clock. So we are going to want to move expeditiously.
    I would like to thank Senator Pryor for raising EDA and 
broadband. These were two issues I was going to cover.

             DIGITAL TO ANALOG CONVERTER BOX COUPON PROGRAM

    While Senator Reed is getting himself together from 
Banking, I want to go to the digital coupon program. We are 
very concerned about whether this is really going to work. 
Could you bring us up to date on where you are on the digital 
coupon? Again, we were short on money. Everybody did this 
famous countdown so we knew it was changing, but then nobody 
knew that in addition to a converter box, they needed an 
antenna and so on.
    Are you looking at this program related to the digital 
coupons not only to help our people be able to afford the 
conversion, but at the same time, get them what they need to 
conduct the conversion in a proper way and not just by buying 
every gizmo that they think is going to help them?
    Secretary Locke. We have transferred from NTIA within the 
Department of Commerce some almost $66 million to the FCC to 
help us get the word out for a smooth transition, public 
service announcements especially in targeted populations and 
targeted parts of the country.
    Senator Mikulski. We got the announcements.
    Secretary Locke. Yes.
    Senator Mikulski. What we need to know is if the content in 
the announcements is worth anything, and number two, do you 
have enough money for really dong the coupons?
    Secretary Locke. We believe that we do have the funds 
necessary to get the coupons out. We noticed that not all the 
coupons that have been distributed have actually been redeemed, 
but we have ample supply of coupons and funds for coupons that 
will go out even after the conversion on June 12.
    We have already had some test markets and data from all the 
major media markets shows that around 95 to 97 percent of the 
households are ready for the conversion.
    Now, we can only get the information out to people. I still 
have some concerns about the quality of the information, 
whether people truly understand these public service 
announcements. Some of these are funded by the private sector, 
but do they really understand what is happening and what they 
are about to face on June 12? So we are looking at upgrading 
the quality of the content of the public service announcements 
and the commercials.
    Second of all, the data shows that most of the top 50 media 
markets around the country--some 95 to 97 percent of the 
households are equipped for the change.
    Senator Mikulski. Well, Mr. Secretary, this is terrific 
because, number one, I am glad you are taking it so seriously 
and are so hands-on on it.
    First, in terms of the quality of the content, people 
really need know to buy the right technology.
    Second, I believe that there is a portion of the population 
that will not focus until they go to turn on the TV and it does 
not work. Therefore, I presume that this program will have to 
exist for another year after the date of conversion when people 
get their wake-up call, if you will, to that. We want to 
continue to work with you to make sure it is happening.
    I will come back to satellites quickly and another quick 
one on the census. But let us turn to Senator Reed, a brother 
coastal Senator. We have been through it with the fisheries, 
have we not, Senator Reed, and our fishermen and watermen 
facing disasters and then at times dealing with Commerce was a 
disaster?

                    ECONOMIC ASSISTANCE TO FISHERIES

    Senator Reed. Well, Madam Chairman, thank you.
    Senator Mikulski. It is a little prickly point.
    Senator Reed. It is. But I want to thank you for your not 
only interest but your effective support because you ensured 
there were $10 million in the last budget for New England 
ground fisheries, and this is just absolutely critical to my 
fishing industry. Without your leadership, it would not have 
happened, and I thank you.
    I want to welcome the Secretary. As we said yesterday, Mr. 
Secretary, I think Dr. Lubchenco, the new NOAA Administrator is 
doing a very good job in her first few days as the point person 
for your Department on these issues.
    As you know and as Senator Mikulski alluded to, in the 
Northeast we are transforming the management of the ground 
fishery to a quota-based catch share system. It is a process 
that works well elsewhere. But we need to ensure that there is 
a continued investment in that activity. As I mentioned, 
Chairman Mikulski was extraordinarily helpful in securing $10 
million for New England's fisheries and Dr. Lubchenco's recent 
announcement of a $16 million investment in groundfish was 
welcome news.
    So the question is, can we assume that you will continue 
this transition by adequately funding it as we go forward and 
prioritizing this support going forward?
    Secretary Locke. Senator Reed, we know that for these new 
fishing regimes to be effective, there has to be economic 
assistance to those affected in the fishing industry, as well 
as having the funds to do the research, to set up the data 
management systems, and to comply with other Federal laws, and 
not to have the fishermen and the fishing industry pay for some 
of these costs. So it is our intent to continue to move forward 
and provide this economic assistance to the fishing industry.
    Senator Reed. Thank you very much, Mr. Secretary.
    Then there is another aspect of this, and that is the 
cooperative research which goes on between the fishing industry 
and the National Marine Fisheries Service and NOAA. It helps 
provide not only support for the fishing industry, but also 
developing new gear and more accurate stock assessments. I hope 
that you would also include this cooperative research as a 
priority in your budget.
    Secretary Locke. We are assuming that. We know that we need 
that type of research to be effective.
    Senator Reed. Well, thank you very much. Thank you, Madam 
Chairman, and thank you, Mr. Secretary. I look forward to 
working with you.
    Senator Mikulski. Mr. Secretary, because of the memorial, 
we are going to conclude this hearing. I have additional 
questions about NOAA. I think what you will observe is that we 
have a great admiration for NOAA, but it needs a lot of reform. 
We believe that the President has picked the right person in 
Dr. Lubchenco and look forward to working with her on this.

                  RECRUITING FOR TEMPORARY CENSUS JOBS

    One final question on the census. These 1 million people. 
We are getting a lot of questions from ethnic heritage groups. 
How and when will people be able to apply for those 1 million 
jobs?
    Secretary Locke. We anticipate receiving the applications 
in the early winter, shortly after 2010, and the hiring and the 
interviewing process will be probably in March so that they are 
up and running in April, receiving some training so that they 
can hit the field. But we know that to have a successful 
census, we need to have outreach to populations that typically 
do not trust government or do not speak English very well. So 
that is going to be the cornerstone of a successful census. 
Outreach, public service announcements, paid advertisements, 
and enumerators that go door to door from those hard-to-reach, 
hard-to-count populations so that those whose doors they knock 
on feel more comfortable seeing a person of their own ethnicity 
or background at the door.
    Senator Mikulski. That is exactly right. We are already 
getting these requests, as I said. The heritage groups in the 
Latino community are well known, but I have a substantial Asian 
community as well. And people are really eager to participate 
and believe that they have the people to recommend for these 
jobs who would love to be able to do them. I believe there is a 
cornucopia of opportunity in our great American mosaic. We have 
these vibrant heritage organizations that can help us recruit 
and do outreach with the personnel that are multilingual and 
would meet the security test.
    The other area for us to give consideration is realtors. As 
you know, so many people in the real estate community are small 
business people--in many instances, primarily women--women and 
men who know their communities cold. Well, they have not been 
as busy as they once were. And the reason I say that is perhaps 
for Census to also look, during this economic downturn--for 
those who not only work in the community--but know the 
community. They know the people. They are familiar with it. 
They are not running around with a GPS saying ``where is 
Montford Avenue?'' and, ``am I in Fells Point?'' which is in 
Baltimore, or Horn Port, which is out on the Chesapeake Bay.
    So I would also consider that this could be an opportunity 
for recruitment with people who are versed with talking with 
people, know the community, are paperwork-oriented, and could 
get the job done. There might be some who were in that field. 
But again, I would discuss it with the National Association of 
Realtors.
    Secretary Locke. Thank you. We could always use more 
partners.
    Senator Mikulski. Senator Murkowski, we were just getting 
ready to wrap up to go to the Holocaust Memorial.
    Senator Murkowski. Madam Chair, if I may just very, very 
briefly ask a question about fisheries and the Denali 
Commission.
    Senator Mikulski. Go ahead.

                   FUNDING FOR THE DENALI COMMISSION

    Senator Murkowski. Thank you, Madam Chairman.
    Thank you, Mr. Secretary. It is a privilege to have another 
westerner sitting in this very important seat as Secretary of 
Commerce and I welcome the opportunity to be working with you 
in these coming-up years.
    Two issues that I want to touch on this morning, and I 
appreciate the consideration of the chairman in giving me a 
couple minutes this morning.
    The Denali Commission, very, very important to us in the 
State of Alaska in terms of how we address some of our very 
critical needs, whether it is water and sewer, whether it is 
bulk fuel infrastructure projects, education, and certainly 
when it comes to health care. It has been a critically 
important partnership between the Federal Government, the State 
of Alaska and tribal organizations with really the chief goal 
being to improve the standard of living in rural Alaska through 
investments in transportation, in infrastructure, rural power 
systems, alternative energy projects, bulk fuel, health 
clinics, teacher housing. It really runs the gamut, and I 
believe it has become a prime example of how Government should 
operate.
    The Commission traditionally has been funded by Congress 
through the annual appropriations process, but I would like to 
work with you to see, as we move forward, if we can get that 
funding for the Commission included in the President's budget. 
I would just ask for your assistance in working with me on this 
important initiative.
    Secretary Locke. I would be delighted to work with you and 
explore funding issues on that.
    Senator Murkowski. Great. I appreciate it. The Commission 
is set to be reauthorized this year, and I am going to be 
working with my colleague, Senator Begich, on this. But we will 
look forward to working directly with you.

                  SUSTAINABLE MANAGEMENT OF FISHERIES

    On fisheries, so critically important not only to my State 
of Alaska, certainly your home State of Washington. But our 
fisheries are truly the lifeblood of coastal Alaska. Very 
substantial interest in making sure that we have the best 
scientific information to continue the management of our 
fisheries in a sustainable way. And I believe that the Federal 
funding that we have seen for fisheries science, at least in 
Alaska, has been inadequate for a number of years.
    There has been discussion and you have indicated that 
funding the full implementation of the Magnuson-Stevens Act and 
its requirements to end overfishing will be key to you. Well, 
we do not have any overfished ground stocks in Alaska. We want 
to keep it that way.
    We have got some fundamental stock assessment surveys, such 
as the Gulf of Alaska pollock survey, that are in danger of not 
being performed due to lack of funding. If NMFS is unable to do 
the survey because they do not have adequate funding, the 
implications on a huge industry can be quite sizable, having a 
negative effect that are far greater than the cost of any 
survey there.
    I guess my question to you this morning, Mr. Secretary, is 
whether or not you agree that funding basic fisheries science 
such as these surveys should be prioritized, and do you intend 
to increase funding for this type of research within the 
budget?
    Secretary Locke. I would have to get back to you with 
respect to the President's proposal on the funding for that 
specific scientific activity, but obviously, we cannot be 
successful in having sustainable harvests, having sustainable 
fisheries if we do not have the science and the scientific data 
to drive those policy decisions. So science is the key. It has 
to be a priority, and without the science, everything else is 
for naught.
    [The information follows:]

                        Basic Fisheries Science

    Assessment of fish stocks is a high priority for the administration 
in order to maintain sustainable fisheries and protect their ecosystem. 
Implementation of Annual Catch Limits and other provisions of the 
Magnuson-Stevens Reauthorization Act must to be based on the best 
scientific information available. The Administration recognizes that 
high quality fish surveys, fishery monitoring, and stock assessments 
are necessary to attain optimum yield while confidently preventing 
overfishing.
    The Alaska Fisheries Science Center conducts fishery surveys to 
measure the distribution and abundance of fish and crab stocks in the 
Aleutian Islands, eastern Bering Sea and the Gulf of Alaska. The 
research surveys use a range of sampling techniques, measurement 
equipment (including acoustic instruments), and fishing gear (trawls 
and longlines). Survey data derived are analyzed by Center scientists 
and supplied to fishery management agencies and to the commercial 
fishing industry.
    The Expand Annual Stock Assessment--Improve Data Collection (EASA) 
and the Survey and Monitoring budget lines fund survey, monitoring, and 
stock assessment activities. Funded at $1.7 million in fiscal year 
2001, the EASA budget line has grown to provide NMFS with increased 
funding and capacity to conduct fish surveys, fishery monitoring and 
stock assessments nationwide. Of the $40.5 million for EASA in fiscal 
year 2009, $2.7 million is used for these activities in Alaska. The 
Survey and Monitoring budget line for fiscal year 2009 is $17.0 
million, of which $4.0 is provided to the Center for survey activities 
in Alaska.
    NMFS continues to increase the number of stock assessments needs in 
Alaska and elsewhere. In fiscal year 2010 we are requesting an 
additional $9.9 million in EASA and an additional $6.3 million for 
survey and monitoring.

                          OCEAN ACIDIFICATION

    Senator Murkowski. Well, I would agree with you. That is 
another area that we would like to be working together with you 
to make sure that we have got the resources to advance that 
science.
    On the ocean acidification----
    Senator Mikulski. Senator, we are really going to have to--
--
    Senator Murkowski. I am going to wrap up right now, Madam 
Chairman, and I appreciate it. I just wanted to mention we all 
recognize, as we are talking about climate change, what we are 
seeing with the ocean acidification as one of the greatest 
threats to climate change. And we do not have any funding for 
that. So, again, areas of science and research that I would 
hope that we could be working on.
    Madam Chairman, I have got a couple other questions about 
Arctic issues and endangered species.
    Senator Mikulski. Yes. I want to just again pledge our 
support. It is just this very poignant ceremony and we need to 
be rather prompt in our----
    Senator Murkowski. And I appreciate your additional time. I 
will submit my additional questions to the Secretary for his 
comments.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. We both have a big investment in NOAA. So 
we look forward to working with you.
    Senator Murkowski. We look forward to working with you.
    Senator Mikulski. Mr. Secretary, as you can see, there is 
no end to the topics that we could discuss with you. This is 
the first of what we would hope would be many conversations, 
both formal and informal. But the committee extends its hand to 
you in partnership and ongoing conversation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

                                 USPTO

    Question. Patent and Trademark Office's (PTO) budget authority is 
based on the amount of fees the agency expects to collect each year. 
For fiscal year 2009, Congress gave PTO authority to spend $1.9 
billion. Yet, due to the downturn in the economy, businesses are filing 
less applications, which means PTO is collecting less fees. As of March 
13, PTO collected $100 million less fees than predicted. Yet, PTO needs 
$1.9 billion to operate in order to continue processing applications 
and to hire additional examiners to reduce backlog. What is the plan to 
address this short fall in fee collections?
    Answer. The budget is built based on the necessary requirements and 
resources needed to accomplish the goals and objectives detailed in the 
USPTO strategic plan. Like any business, if projected fee collections 
are insufficient to fully meet the resource requirements for the year, 
the agency strives to prioritize critical activities (i.e., patent and 
trademark examination).
    Due to current economic conditions, the agency anticipates end of 
year fee collections will be approximately equal to actual collections 
in 2009. In response, USPTO management has made decisions to implement 
cost-saving measures, which include:
  --Fiscal year 2009 Patent Hires Frozen at 600 attrition replacements
  --Instituted an exception hiring process to limit hiring to critical 
        vacant positions or areas of need.
  --Eliminated Discretionary Awards and essentially stopped Non-Revenue 
        Generating Overtime
  --Curtailed Revenue Generating Overtime
  --Significantly curtailed Training Expenditures not required to 
        sustain job-critical qualifications or that was already 
        obligated.
  --Suspended the Law School Reimbursement Program
  --Reduced spending IT System Development/Improvement Efforts
  --Reduced spending Patent Workload-based Contracts
  --Reduced spending Non-IT Contracts/Services
  --Reduced global IP training programs and conferences, and reduced 
        international travel
  --Reduced domestic Travel and Supply Purchases
    Question. What steps will PTO take if fee collections continue to 
decline?
    Answer. Should the economy continue to decline resulting in further 
reductions to USPTO resources, several options still exist to reduce 
funding requirements including:
  --Suspending all patent examiner recruitment & retention bonuses
  --Suspending all production and revenue generating overtime
  --Further reducing spending on IT infrastructure strengthening and 
        replacement projects
  --Further reducing global IP training programs and conferences, and 
        reducing international mission travel
  --Reducing IT and non-IT operational support functions
    The USPTO is working with my staff and the Office of Management and 
Budget to improve the current operating model so that it can 
responsibly accommodate both positive and negative changes in the 
economic landscape. We look forward to engaging Congress to develop the 
optimal model to ensure continued USPTO success.
    Question. How will this affect the current backlog?
    Answer. The USPTO had planned to hire 1,200 patent examiners in 
fiscal year 2009. In an effort to address the short fall in fee 
collections, the office now plans to hire only 600 patent examiners. 
The agency would have expected the additional 600 examiners to process 
approximately 6,000 applications in fiscal year 2009. However, given 
the decline in patent application filings, USPTO's current projections 
of average wait times, which are contained in the 2010 Budget are lower 
than the same projections made in the 2009 Budget.
    Question. The Commerce Inspector General concluded PTO is one of 
the top management challenges facing the Department. The patent backlog 
continues to grow, and is on track to have a backlog of 800,000 cases 
this year with the average time to process an application is almost 3 
years. In the past, PTO blamed funding shortages for the problem, yet 
even with increased funding, the problem seems to be getting worse. 
What steps will the new Secretary take to reduce the backlog?
    Answer. For clarification, the USPTO anticipates the backlog at the 
end of the year will be approximately 740,000. This estimate reflects 
that the USPTO anticipates a decrease in its backlog by approximately 
10,000 cases this year.
    Hiring--while not the sole answer to reducing the backlog--remains 
an important means for examining record numbers of new patent 
applications. In 2005, when the USPTO set a strategic goal of hiring 
1,000 new examiners per year, many in the public said that it couldn't 
be done. Yet, the USPTO successfully hired and trained these new 
employees, and then went on to hire and train over 1,200 new patent 
examiners in fiscal year 2007 and fiscal year 2008. These new patent 
examiners have helped cut into the patent backlog, by decreasing the 
rate at which the backlog was increasing.
    In addition to hiring, providing patent examiners with training, 
mentoring, better electronic search and examination tools, and 
reviewing ways to improve the quality of patent applications are 
reforms the USPTO is pursuing to help it reduce the backlog. 
Additionally, the Accelerated Examination option introduced in August 
2006, allows any applicant to obtain a patent decision within 12 
months. To date, over 3,060 of patent applications have been filed 
under the Accelerated Examination program.
    Question. In 2008, GAO report found that PTO hiring efforts were 
not sufficient to reduce the backlog of patent applications. For every 
patent examiner PTO hired, the agency lost two patent examiners. Patent 
examiners leave because cost of living in DC is high, they want more 
hands on experience, and the private sector offers better 
opportunities. GAO found bonuses; special pay rate and opportunities to 
work remotely would greatly increase retention. The GAO in June 2005 
recommended 2 steps to improve hiring and retention of examiners, which 
included improving communications between management, patent examiners 
and union officials. Fostering greater collaboration will resolve 
issues underlying the quota system and the need for continuous 
technical training. What is the current staff retention rate?
    Answer. To clarify a misstatement in the question, for every two 
patent examiners hired, the USPTO loses one patent examiner. The USPTO 
does not lose two examiners for every one hired. The attrition rate is 
an overall rate based on the entire examiner population.
    The current patent examiner overall attrition rate, as of April 
2009, is 6.8 percent. This figure translates to a 93.2 percent 
retention rate.
    Since the GAO released a report on USPTO hiring efforts in 
September 2007, the USPTO has experienced improvement in patent 
examiner attrition rates. At the time of the GAO report, the overall 
patent examiner attrition rate was 8.5 percent, and first year 
attrition rate was 15.6 percent. In the fiscal year 2008, this dropped 
to 12.9 percent, which represents a 30 percent decline. The average 
attrition rate for patent examiners with less than 3 years experience 
was 15.5 percent when the GAO report was released. Currently, the rate 
has dropped nearly 21 percent to 12.3 percent. Notably, the average 
attrition rate for patent examiners with greater than 3 years 
experience is currently 2.2 percent. Overall, the USPTO attrition rate 
is lower than the average rate for Federal workers (8.5 percent vs. 
11.2 percent).
    We believe this improvement in attrition is attributable to the 
economy along with a strong work life quality program and a number of 
targeted initiatives including:
  --Flexible work schedules;
  --Expansive teleworking programs;
  --Recruitment bonuses;
  --Part-time employment;
  --Lap top computers available for overtime work away from the office;
  --Productivity award programs
  --Increased training opportunities tailored to examiners' needs;
  --Focused training for new examiners; and
  --Movement toward a nationwide workforce.
    To date, however, several of these initiatives have been suspended 
due to reduced fee collections.
  --Reimbursement for advanced technical education and law school;
  --Annual adjustment to examiner special pay.
    Question. What steps will you take as the new Secretary to ensure 
these recommendations are implemented to continue to reduce attrition 
and retain employees?
    Answer. Since the June 2005 GAO report, the USPTO has taken steps 
to strengthen communications between management, patent examiners, and 
union officials. These steps include instituting weekly work group 
meetings and larger bi-weekly meetings between managers and employees; 
establishing a policy that first-line supervisors hold regular 
meetings; holding regular monthly meetings with union officials and the 
Patent Office Professional Association; and working to institute a 
quarterly Joint Labor Management meeting with all unions.
    As noted in the response above, the USPTO has also instituted a 
number of retention initiatives. The USPTO recognizes that a qualified 
corps of patent examiners is essential to effectively handle its 
important responsibilities. Attracting and retaining those highly 
qualified employees through a range and incentives and a positive work 
environment are absolutely necessary. I intend to review all 
initiatives currently in place with the emphasis of expanding and 
improving them.

                               ITA US&FCS

    Question. Created under the Foreign Service Act, the United States 
& Foreign Commercial Service is the trade promotion arm of the 
International Trade Administration. They represent U.S. business 
interests internationally, and small-and-medium-sized businesses rely 
on this service to promote the export of goods and services from the 
United States. In recent years, management trends at the Department of 
Commerce suggest that the number of commercial officers overseas is 
diminishing, while officers serving in domestic locations in non-
commercial roles grow. This trend has the potential to seriously 
jeopardize the support of expanding U.S. businesses overseas.
    How many Foreign Service officers did the Commercial Service have 
in fiscal year 2004 versus what the Department expects in fiscal year 
2010?
    Answer. In fiscal year 2004, US&FCS had 246 officers. In fiscal 
year 2010, US&FCS expects to have 237 officers.
    Question. How many current officers serve in domestic positions?
    Answer. A total of 49 officers are currently serving in domestic 
positions.
    Question. What is the attrition annual rate of Foreign Service 
officers?
    Answer. The annual attrition rate for the Foreign Service officers 
for each of fiscal year 2005, 2006 and 2007 was 7 percent. In fiscal 
year 2008, it was 5 percent and in fiscal year 2009, it is expected to 
be 3 percent.
    Question. How many overseas posts did the Commercial Service have 
in fiscal year 2004 versus fiscal year 2010?
    Answer. In 2004, US&FCS had 153 overseas posts in 82 countries. It 
is expected that US&FCS will have 131 overseas posts in 80 countries in 
fiscal year 2010.
    Question. How many of those positions are not currently filled?
    Answer. We currently have 13 vacant Foreign Service Officer 
overseas positions in fiscal year 2009.
    Question. Explain how the fiscal year 2010 budget request 
adequately supports the mission of the U.S. Commercial Service and that 
of the Foreign Service Officers.
    Answer. The fiscal year 2010 budget provides adjustments for 
inflationary expenses in personnel and US&FCS fixed costs related to 
the provision of support services to both international and domestic 
offices and the headquarters. In addition, the request includes $5.2 
million to expand ITA presence in emerging markets in Asia, Africa and 
Eastern Europe.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                    NTIA--BTOP/TARGETING RURAL AREAS

    Question. Secretary Locke, I wanted to ask you about the Department 
of Commerce's plans to deploy the more than $4 billion in American 
Recovery and Reinvestment Act broadband deployment funding Congress and 
the Administration gave to your agency. I am especially concerned about 
ensuring that this funding reaches rural America, the Department of 
Commerce's definitions of underserved and unserved, the Department of 
Commerce's anticipated timeline for distributing these funds, and the 
agency's intent to consult with States about pre-existing broadband 
deployment plans.
    The digital divide runs deeply through rural America--and 
especially through rural Vermont. I firmly believe that places like the 
Northeast Kingdom of Vermont--the three most Northeastern counties of 
Vermont, areas in southern Vermont isolated by the Green Mountain 
National Forest and vast numbers of ``digitally disconnected'' 
Vermonters living in between these two areas receive priority when it 
comes to distributing funding for your Broadband Technology 
Opportunities Program. This will mean carefully defining unserved and 
underserved. Preference for funding must be given to Americans with no 
access to broadband. However, communities where the private sector has 
``cherry picked'' profitable customers and left their rural neighbors 
offline must be afforded funding opportunities through the ARRA 
broadband programs.
    I commend you, and Secretary Vilsack of the Department of 
Agriculture, for adopting aggressive timelines to formulate plans for 
the distribution of these broadband funds. I believe that the NTIA must 
continue this aggressive posture to deploy these funds in time for the 
2009 construction season, a short window in Northern climates like 
Vermont. A 100 million broadband project in east central Vermont, East 
Central Vermont Fiber, is shovel ready right now--a victim of the 
financial collapse. Dozens of wireless projects are on hold, from 
companies like Great Auk (AWK) Wireless and Cloud Alliance in Vermont, 
ready for construction if Federal funding can be identified. The 
Vermont Telecommunications Authority has $40 million in State bonding 
authority waiting for a matching Federal investment. North-Link, a 
fiber project in northwestern Vermont, is under construction already--
but awaiting a final investment to finish construction. These projects 
can deliver broadband access to Vermonters by the end of the summer--
but it will depend on you and your agency pushing to get this money out 
the door as quickly as possible.
    And finally, I want to bring your attention to the work the Vermont 
Congressional Delegation and Vermont's Economic Stimulus and Recovery 
Office have undertaken since Congress passed the recovery act. We began 
aggregating broadband infrastructure grant proposals throughout Vermont 
in an attempt to offer NTIA and RUS a comprehensive strategy towards 
building broadband infrastructure to every Vermonter. This effort has 
brought together private, public and non-profit providers who have 
shared their proposals and plans with our offices and State officials. 
As ARRA requires NTIA to consult with States, I hope you and your team 
will take such comprehensive approaches into consideration when making 
decisions on broadband funding applications. Should the Department of 
Commerce decide to provide block grants to States, I also ask that you 
not base your decisions on population, but instead on a State's true 
build out needs. For years private telecom providers have chosen to 
deliver services first to high population areas and second to rural 
Americans. This strategy has left America's largest digital divide in 
low population, rural States like Vermont. At a minimum, any block 
grant should include an all-State-minimum of no less than three-
quarters-of-one-percent of all ARRA broadband funds.
    Given the rural paradox of telecommunications, where those most 
isolated and who benefit the most from telecommunications 
infrastructure are the last to receive such access, does the Department 
of Commerce plan to specifically target rural and underserved areas 
such as Vermont through the Broadband Technology Opportunities Program.
    Answer. The Broadband Technology Opportunities Program (BTOP), as 
set forth in the American Recovery and Reinvestment Act of 2009 
(Recovery Act), has many important goals. One of these is to ensure 
access to broadband service for consumers living in ``unserved'' areas 
of the United States. The Recovery Act also provides funding to improve 
broadband access in ``underserved'' areas--whether they are in rural, 
suburban, or urban settings. Within the Department of Commerce, the 
National Telecommunications and Information Administration is in the 
process of defining these and other statutory terms in order to 
establish funding eligibility criteria. While the final criteria have 
yet to be established, I am confident that they will ensure that 
applicants seeking to serve rural and underserved areas of Vermont will 
be able to compete effectively for BTOP funding.
    Question. I understand the Department has already suggested a 
tentative timeline for issuing solicitations for BTOP funding. Does the 
Department of Commerce plan to stick to that timeline?
    Answer. NTIA is working as expeditiously as possible to implement 
the BTOP. On March 12, 2009, NTIA and the Department of Agriculture's 
Rural Utilities Service (RUS) issued a joint Request for Information 
(RFI), inviting public comment on implementation of BTOP. NTIA is 
currently in the process of reviewing the public comments filed in 
response to the RFI and plans to issue a Notice of Funds Availability 
(NOFA) this summer to allow eligible entities to apply for BTOP funds. 
NTIA plans to issue two subsequent NOFAs, inviting additional grant 
applications, which will be timed to ensure that all grants are made 
before the statutory deadline of September 30, 2010.
    Question. Would you consider a more aggressive timeline that might 
get all of the funding to States this construction season?
    Answer. The Recovery Act requires that all funds be obligated by 
September 30, 2010. In order to meet this requirement and to provide 
all participants a reasonable opportunity to apply, NTIA is considering 
giving applicants three opportunities, or rounds, to apply for BTOP 
funds over the life of the Program. The agency's current plan is to 
publish a NOFA this summer and to hold workshops in a number of 
locations across the country, soon thereafter, to answer questions 
about the application process. This process would be repeated in late 
calendar year 2009 and again in spring 2010, so that prospective 
applicants who are not ready this summer can prepare to apply for BTOP 
funds during the second or third rounds. The three rounds would also 
allow NTIA to make program adjustments based on the experience from the 
earlier rounds. NTIA believes that having several opportunities for 
organizations to apply is equitable and effective--especially for 
smaller organizations that have fewer resources and may need more time 
to prepare their applications and will help ensure that the funds are 
used in the most efficient manner possible. Futhermore, multiple rounds 
will also help organizations in States like Vermont apply for funds in 
time for their respective construction seasons.
    Question. Will States like Vermont, where a coordinated effort is 
already underway to provide NTIA with a comprehensive and consolidated 
broadband grant application, be more competitive than States that 
submit piece-meal applications?
    Answer. In the Recovery Act, Congress wisely directed that NTIA 
consult with the States with respect to the best ways to identify areas 
to which broadband grant funds should be directed and the proper 
allocation of grant funds. NTIA has already begun meeting with 
officials from the States and has been actively soliciting input with 
regard to best practices. I expect different States to adopt different 
approaches to the BTOP program, but we will not be able to assess the 
relative merits of any particular approach until all the applications 
have been filed.
    Question. Would you support including additional appropriations to 
the Broadband Technology Opportunities Program into the annual 
appropriations process?
    Answer. The Recovery Act provides NTIA with $4.7 billion for the 
purposes of increasing broadband deployment and adoption in unserved 
and underserved areas of the United States, and the statute requires 
that these funds be obligated by September 2010. Accordingly, NTIA is 
working to implement the program and to issue grants quickly and 
efficiently to qualified recipients. I will be working closely with the 
Assistant Secretary of NTIA, the Office of Management and Budget, and 
Members of Congress as the program develops in order to assess whether 
it is fulfilling its objectives within existing appropriations. 
Decisions about future appropriation requests will be made in the 
context of program performance and the Administration's budget process.
                                 ______
                                 

                Questions Submitted by Senator Jack Reed

                     NTIA--COMPETING FOR BTOP FUNDS

    Question. The Recovery Act provides $4.7 billion to establish a 
national broadband service development and expansion program, known as 
the Broadband Technology Opportunities Program or BTOP. This program 
will provide competitive grants to improve broadband access in 
``unserved'' and ``underserved'' areas.
    Can you provide any assurance that agency guidance related to 
``unserved'' and ``underserved'' areas will be defined in a way that 
ensures that States that do not contain mainly rural areas, like Rhode 
Island, will be able to effectively compete for this important funding?
    Answer. Yes. The Broadband Technology Opportunities Program (BTOP), 
as set forth in the American Recovery and Reinvestment Act of 2009 
(Recovery Act), has many important goals. One of these is to ensure 
access to broadband service for consumers living in ``unserved'' areas 
of the United States. The Recovery Act also provides funding to improve 
broadband access in ``underserved'' areas--whether they are in rural, 
suburban, or urban settings. In addition, the Recovery Act contemplates 
grants being awarded in every State and directs NTIA to provide support 
for an array of initiatives, including broadband education, awareness, 
training, access, and equipment for strategic institutions, such as 
schools, job-creating facilities, libraries, and healthcare providers. 
In view of these statutory objectives, I am confident that applicants 
from Rhode Island will be able to compete effectively for BTOP funding.

                    EDA--TRADE ADJUSTMENT ASSISTANCE

    Question. The American Recovery and Reinvestment Act reauthorized 
the Trade Adjustment Assistance (TAA) for Firms and tasked the program 
with covering service industry firms.
    Can you provide an update on Economic Development Administration's 
progress in expanding its cover of serving service firms?
    Answer. On May 5, 2009, EDA published a proposed rule in the 
Federal Register that implements the provisions of the reauthorization 
statute, including inclusion of service sector firms.
    On May 18, 2009, EDA sent comprehensive guidance to the Trade 
Adjustment Assistance Centers addressing the addition of service sector 
firms. EDA directed the Centers to accept applications from service 
sector firms immediately.
    The guidance package included worksheets and templates that augment 
the existing application form (ED-840P) to provide the additional 
information required for service sector firm certification and to 
comply with the performance data collection requirements of the 
reauthorization statute.
    EDA will conduct teleconference training with Trade Adjustment 
Assistance Center personnel to update them and provide ongoing support 
for both the Centers and applicant firms.
    EDA will engage the Centers in the development of the revised 
certification form and other documentation prior to seeking Paperwork 
Act Reduction approval of any new forms.
    Question. Do you believe EDA will have sufficient resources to meet 
its new responsibilities without reducing assistance to manufacturers?
    Answer. EDA can meet its new responsibilities while still assisting 
manufacturers. The Recovery Act authorized EDA to use $350,000 of its 
appropriations each fiscal year on full-time administrative positions 
for the TAA for Firms program. The majority of the EDA FTE 
administering the TAA for Firms program evaluate and certify firm 
eligibility. EDA is required to conduct both a programmatic and a legal 
review of each certification petition. EDA anticipates that service 
sector firm certifications will be approximately equal to the existing 
number of manufacturer certifications. As a result, overall 
certifications are expected to double.
    With respect to the eleven Trade Adjustment Assistance Centers, EDA 
anticipates significant transition issues because the Centers' existing 
staff is geared almost exclusively to the manufacturing and producing 
firms that have been the focus of the program for over 25 years.
    EDA is exploring policy options that will allow the TAA for Firms 
program to effectively assist more firms, in both the manufacturing and 
service sectors, without the need for additional funding or increased 
overhead.
                                 ______
                                 

               Questions Submitted by Senator Ben Nelson

                    NTIA--BTOP/TARGETING RURAL AREAS

    Question. It is critical that the broadband stimulus funds are 
spent in a way that targets them where they are needed most. Is it your 
intent to make unserved areas, those areas where broadband has not 
previously been deployed, as the number one priority at NTIA?
    Answer. The Recovery Act charges the Department of Commerce with 
the responsibility of addressing the broadband needs of both 
``unserved'' and ``underserved'' populations, facilitating greater use 
of broadband services, increasing broadband speeds, and increasing 
broadband access to community institutions, among other objectives. 
While I expect NTIA to pursue all of these objectives, I agree with you 
that the Broadband Technology Opportunities Program provides a unique 
opportunity to expand broadband access to communities that desperately 
need it, particularly those areas of the United States that are 
currently unserved.
    Question. The Recovery Act does not define the terms ``unserved,'' 
``underserved,'' or frankly, even for that matter, ``broadband.'' The 
House-Senate conferees provided some guidance, but ultimately, the 
definitions are up to the agencies.
    I believe that it is important that we do not establish definitions 
for broadband that are so high that they would end up actually leaving 
rural areas behind. If our goal is to build broadband infrastructure, 
if we set speed thresholds too high, the digital divide between rural 
and urban areas could be further exacerbated. Demanding the fastest 
possible speeds--in areas that don't even support basic broadband 
today--as a condition of awarding a grant seems like a recipe for 
deterring any investments in these areas, depriving them of jobs in 
building out broadband and perpetuating the lack of broadband service 
there.
    How do you plan to implement the definition of broadband in a way 
that will result in deployment of broadband at advanced speeds?
    Answer. Among other things, the Recovery Act directs NTIA to 
provide the greatest broadband speed possible to the greatest 
population of users. To help implement these requirements, NTIA and the 
Department of Agriculture's Rural Utilities Service (RUS) published a 
joint Request for Information (RFI) on March 12, 2009, seeking the 
public's input on these definitions, as well as a number of other 
policy and procedural issues. NTIA received over 1,000 comments in 
response to the RFI by the April 13, 2009 deadline. NTIA is in the 
process of reviewing the public comments filed in response to the RFI 
and plans to issue a Notice of Funds Availability (NOFA) this summer to 
allow eligible entities to apply for BTOP funds and setting forth 
eligibility criteria. I am confident that these criteria will be 
consistent with the statutory directive to maximize the number of 
consumers with access to broadband, while at the same time increasing 
the speed of broadband service that is available.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                                  NOAA
             ELECTRONIC LOG BOOKS ON THE GULF SHRIMP FLEET

    Question. In January 2008, NMFS promulgated regulations 
implementing the red snapper rebuilding plan requiring the shrimp fleet 
to reduce fishing effort and by-catch in juvenile red snapper habitat 
areas by 74 percent. Failure to achieve this target reduction triggers 
the closure of those areas to the shrimp fleet. This program is the 
principal means to monitor the level of shrimp fishing effort and by-
catch in the red snapper habitat areas as required by these 
regulations.
    What is NMFS doing to assist the shrimp industry with their efforts 
to install Electronic Logbooks on the Gulf shrimp fleet in order to 
monitor shrimp fishing effort?
    Answer. NMFS is funding a contract to support acquisition and 
installation of Electronic Logbooks on shrimp vessels, and collection 
and analysis of the data gathered by the devices for use to estimate 
effort in the shrimp fleet. In fiscal year 2009 NMFS is applying 
$200,000 to the contract. NOAA has not requested funds for this in 
fiscal year 2010.
    Question. Are the log books effective in assisting NOAA in 
determining by bycatch levels?
    Answer. Yes, the data obtained from this program assists us in 
estimating levels of sea turtle and red snapper bycatch mortality in 
the shrimp trawl fishery, as well as bycatch levels for other species 
such as blacknose sharks. This program has improved the accuracy of 
shrimp fishing effort estimates. Since inception, 538 Electronic Log 
Books (ELBs) have been installed in a representative sample of the Gulf 
of Mexico shrimp vessels (about one-third of the active fishing fleet 
covering the entire Gulf of Mexico from south Florida to south Texas) 
and 470 of these units are still deployed and functioning.
    Question. If so, why is NOAA not assisting the boat captains with 
the cost to implement these regulations?
    Answer. Currently, there are no costs to the boat captains for 
implementation of the ELB program, other than providing the information 
through the ELB.
    Question. Installing electronic logbooks on shrimp boats is the 
only means available for NMFS to accurately measure shrimp fishing 
effort and, thus, to prevent the closure of this fishery and the loss 
of thousands of jobs. If NMFS is going to require that shrimp fishermen 
reduce their fishing effort by 74 percent in some of their best fishing 
areas in order to support your red snapper plan, don't you think it 
makes sense for NOAA to assist in funding the purchase and installation 
of these electronic logbooks--and fund the collection and analysis of 
the data?
    Answer. Currently, there are no costs to the boat captains for 
implementation of the ELB program, other than providing the information 
through the ELB. All ELB installation, data collection, and data 
analysis, are covered by a NMFS funded contract.
    Question. NOAA has created a funding disparity between the 
Northeast, Northwest, and the Gulf of Mexico. Despite the fact that 
some of the largest river systems in the Nation pour into the North 
Central Gulf of Mexico and the existence of well-respected research 
facilities along the Gulf Coast, NOAA has consistently focused its 
resources in other parts of the country. The ecosystems of Mobile River 
(America's 4th largest river system) and Bay along with Alabama's 
coastal communities support tourism, commercial and recreational 
fishing, and important habitats for fish and wildlife. What will you do 
Mr. Secretary to ensure that the Gulf of Mexico is treated more 
equitably in the distribution of NOAA research and weather dollars?
    Answer. The Department agrees that NOAA has an important role to 
play in supporting the Gulf of Mexico. NOAA continues to work to 
address the unique and critical needs of all regions of the country, 
including the significant needs of the Gulf of Mexico region. NOAA is 
committed to addressing the needs of the Gulf region and continues to 
implement a number of activities to assist the region. Despite the 
fiscal constraints of the fiscal year 2010 budget, it includes 
continued support and increases for NOAA activities in the Gulf of 
Mexico. Additional details and examples of activities supporting the 
Gulf are included below.
    NOAA Fisheries budget includes $20.5 million specifically for Gulf 
of Mexico activities, an increase of $8.0 million or 64 percent over 
2009. This increase includes $2.5 million to collect and analyze data 
to improve our understanding of the fishery impacts of hurricanes, our 
efforts to mitigate those impacts, and our ability to minimize the 
impacts of future storms. The funding will support time on ships and 
other platforms for surveys of fish, shrimp, other living marine 
resources as well as social and economic surveys of the fishing 
industry and fishing communities. This program provides the data and 
core assessments needed to support fisheries management in the 
hurricane-prone areas. The budget requests an additional $1.1 million 
to support economic surveys of commercial fishing fleets and 
recreational anglers, and development of decision support tools for 
assessing catch shares, fish stock rebuilding plans, community impact 
analysis, and other management measures. Additional economic surveys 
that will be conducted include a series of marine protected area 
surveys and protected species valuation surveys.
    The budget provides additional resources for observer coverage in 
the Gulf. An increase of $1.1 million for observer coverage of pelagic 
longline fishery of Atlantic Bluefin tuna in the Gulf of Mexico will 
allow NMFS increase the observer coverage required for the Gulf of 
Mexico pelagic longline fleet and an additional $0.1 million will 
augment observer program coverage in the Gulf of Mexico reef fish 
fishery. This observer program monitors the catch and discard of reef 
fish species and other finfish and ESA species in the Gulf of Mexico 
reef fish fishery.
    The fiscal year 2010 budget also provided additional resources to 
support the implementation of Annual Catch Limits. An increase of $1.4 
million will support fishery independent surveys in the Gulf of Mexico 
to produce the best technical advice to the Fishery Management Councils 
and support the implementation of Annual Catch Limits. An inshore trawl 
survey to support the assessment of gag and other snapper-groupers also 
will be implemented. In addition, an increase of $0.5 million for the 
Gulf Regional Council provide it with important resources to set, 
evaluate, and revise annual catch limits (ACLs) and accountability 
measures (AMs) to end overfishing on stocks subject to overfishing by 
2010 and for all other stocks by 2011 and to develop amendments to 
their Fishery Management Plans (FMPs) that implement ACLs and AMs. An 
additional $0.4 million will support the improvement and enhancement of 
the independent peer-review process for scientific data required to 
appropriately set the annual catch limits for managed fisheries in the 
Gulf of Mexico.
    The budget also provides additional resources to gather more 
accurate data on fisheries landings. It includes an increase of $0.3 
million for commercial fisheries biological sampling and to support 
more timely reporting of commercial fisheries landings through the 
development and implementation of electronic reporting technologies. It 
also includes $0.6 million to support work by State agencies to provide 
more complete and timely information on marine recreational fishing 
participants (anglers and for-hire vessels) for inclusion in the 
National Saltwater Angler Registry. More complete and up-to-date 
registries can be used for more efficient and precise telephone surveys 
of fishing effort in both State and Federal waters.
    In addition to NMFS activities, the National Ocean Service (NOS) 
continues to support activities to address the critical needs of Gulf 
of Mexico communities and ecosystems, including an increase of $1 
million in fiscal year 2010 for the Gulf of Mexico Alliance. Highlights 
of NOS activities in the Gulf include:
  --Since 2008, NOS has conducted a competitive grant program to 
        address priority activities of the Gulf of Mexico Alliance: 
        create hazard resilient coastal communities; ensure healthy 
        beaches and shellfish beds; support habitat conservation and 
        restoration; increase environmental education; promote 
        ecosystem integration and assessment; and reduce nutrient 
        inputs to coastal ecosystems. The fiscal year 2010 Presidents 
        Request includes $5 million for this grant program, an increase 
        of $1 million over fiscal year 2009 appropriation.
  --All five Gulf of Mexico States participate in the State-Federal 
        coastal zone management partnership created under the Coastal 
        Zone Management Act of 1972 (CZMA). Gulf States receive annual 
        grants from NOAA ranging from $1-2 million, matched 
        approximately 1 to 1 by State and local resources. In fiscal 
        year 2008 the five States received a total of $10.3 million to 
        implement their programs, and the fiscal year 2010 President's 
        Request includes this level of funding for the States as well 
        (estimates pending final appropriations). The Gulf of Mexico 
        State coastal zone management programs focus on a range of 
        issues important to the region: coastal habitat protection, 
        mitigation, and restoration; managing coastal development to 
        protect lives and property and enhance community resiliency; 
        and engaging in outreach and education about the importance of 
        the region's tremendous coastal resources.
  --NOS distributes water level information from a network of 
        approximately 70 Federal and partner monitoring stations in the 
        Gulf, including 4 new stations built in 2008 to withstand a 
        Category 4 Hurricane. These hardened stations were designed 
        following the devastating 2005 hurricane season to provide 
        critical oceanographic and meteorological information 
        throughout storm events. The water level information provided 
        by NOS supports marine navigation, storm surge warning systems, 
        coastal restoration activities, and climate monitoring.
    NOS continues to support other activities in the region including 
hydrographic surveys for nautical charts, accurate positioning, oil 
spill response, tides and currents data for marine transportation and 
other uses (including 8 Physical Oceanographic Real-Time Systems 
(PORTS) in the Gulf of Mexico region by the end of fiscal year 2009), 
regional coastal ocean observing systems, resource protection through 
four National Estuarine Research Reserves and one National Marine 
Sanctuary, coastal and estuarine land conservation, coastal zone 
management and coastal storms capacity building, status and trends of 
chemical contamination of U.S. coastal waters, Harmful Algal Bloom 
Forecasts, and other efforts to support the region.
    Question. This Administration contends that global warming poses a 
serious risk to the country's ecosystems. In Mobile Bay, for instance, 
many contend that global warming and saltwater intrusion will 
fundamentally alter the ecosystems that many of Alabama's citizens 
depend on for their livelihoods. What is NOAA doing to research the 
effects of global warming, specifically in important estuary systems 
like Mobile Bay?
    Answer. Estuaries are biologically and ecologically important 
ecosystems that provide important services to the surrounding 
communities and ecosystems. Through the National Estuarine Research 
Reserve System (NERRS), NOAA is working to understand and protect 
valuable estuarine ecosystems around the country. These sites also 
serve as important ``living laboratories'' for research, including 
studies to improve understanding of how ecosystems respond to climate 
change. There are four NERR sites in the Gulf of Mexico (including 
Weeks Bay in Alabama) and a total of 27 sites around the country.
    NERRS is a network of protected areas established for long-term 
research, education and stewardship. This partnership program between 
NOAA and the coastal States protects more than one million acres of 
estuarine land and water, which provides essential habitat for 
wildlife; offers educational opportunities for students, teachers and 
the public; and serves as living laboratories for scientists.
    NOAA is supporting interdisciplinary, multi-year competitive 
research programs investigating how oceanic and coastal ecosystems 
respond to climate variability and change. The goal is to provide 
managers with the scientific knowledge and tools, including ecological 
models, to prepare for climate change impacts with more certainty in 
scale, timing and local detail. This research, supported through the 
National Centers for Coastal Ocean Science (NCCOS), focuses on three 
issue areas in particular: fisheries, protected resource impacts and 
sea level rise.

                         LARVAE SAMPLE ANALYSIS

    Question. Is it true that the National Marine Fisheries Service 
routinely sends its larvae samples all the way to Poland for analysis? 
I understand that this is a critical piece of the process for 
researching ecosystems, the health of fish stocks, and other scientific 
questions. I also understand that by sending these samples to Poland, 
we are forcing our research community to wait as much as a year for 
results and pay enormous amounts of money to a foreign entity.
    Shouldn't NOAA be focused on building this capability in this 
country, putting Americans to work, and improving the ability of our 
research facilities to do timely work?
    Answer. The National Marine Fisheries Service (NMFS) and the Morski 
Institute Rybacki (Sea Fisheries Institute) of Poland have a 35-year 
bilateral agreement to conduct joint research on fisheries ecology. 
This cooperative research effort began in 1974 as a way for Poland to 
repay its debt to the United States for financial assistance after 
World War II. In the early years, NMFS plankton specialists trained the 
Polish marine scientists in the detailed methods of identifying fish 
larvae from all U.S. waters. Although the war debt was repaid in the 
mid-1980s, this highly successful scientific collaboration has 
continued, because it is beneficial to both sides.
    The Polish Sorting Center is the most economical, accurate, and 
timely way to accomplish the detail-oriented work of sorting and 
identifying the contents of plankton samples. For example, the Alaska 
Fisheries Science Center spends $180,000 per year for the sorting and 
identification of their 2,000 samples by the Polish Sorting Center. To 
accomplish this same level of effort in-house, the Alaska Fisheries 
Science Center recently estimated that they would incur personnel costs 
of approximately $900,000 annually, as well as additional costs for 
supplies, equipment, and modifications to their laboratory space. The 
Polish Sorting Center's turn-around time for NMFS' samples is typically 
3-10 months. Their staff has been doing this work for 35 years, and 
they are experts in the identification of larval fish and zooplankton 
from at least seven of the Large Marine Ecosystems (LMEs) managed by 
NMFS. This depth of experience enables them to maintain high standards 
of quality control, and to provide consistent data year after year.
    At present, three NMFS science centers (Northeast, Alaska, and 
Southeast) and the Dauphin Island Sea Lab are participants in this 
agreement. If NMFS were to lose this relationship, we would need an 
immediate qualified partner to accomplish the ongoing work and avoid a 
multi-year delay in providing data to our stakeholders. At this time 
there is only one other sorting center that could process NMFS' samples 
from multiple LMEs. However, that center is also outside of the United 
States. The time necessary to establish a sorting and identification 
center and train staff is approximately 3-5 years. Loss of continuity 
in standardized identifications, especially for problematic species 
groups such as tunas, mackerels and snappers, would put data integrity 
at risk. A disruption of this magnitude would jeopardize NMFS' ability 
to meet our fishery-management mandates, including the requirement to 
provide fishery-independent indices from plankton surveys for the 
federally managed species in the Gulf of Mexico.
    Question. We have seen an appalling decline in interest among young 
people in science and research. There are many worthwhile programs 
around the country that try to get kids interested in science. For 
instance, the Dauphin Island Sea Lab in Alabama brings school groups 
from all over the State and Southeast United States to the Lab for 
educational programs designed to help them better understand and 
appreciate the world they live in. What can NOAA do to increase young 
peoples' interest in natural science and help programs like those 
sponsored by the sea labs?
    Answer. In the America COMPETES Act of 2007, Congress provided NOAA 
with a broad mandate to ``conduct, develop, support, promote, and 
coordinate formal and informal educational activities at all levels.'' 
As the lead agency in ocean and atmospheric sciences, NOAA is in a 
unique position to motivate and connect the younger generation to the 
world they live in. NOAA has many well-established national and 
regional programs that provide meaningful educational opportunities to 
the younger generation. NOAA will continue to support NOAA's education 
activities to increase students' interest in natural science and 
provide teachers the tools needed to nurture and encourage that 
interest through Competitive Education Grants, that allows NOAA to 
expand our partnerships with capable education institutions such as the 
Dauphin Island Sea Lab. Below are just a few examples of education 
programs and activities across NOAA:
    Competitive Education Grants.--NOAA's Office of Education offers 
several grant programs that are intended to provide K-12 students with 
instructional materials and/or experiences within or outside of the 
classroom that will encourage their interest in science and the 
application of that knowledge to real-world problems. The Competitive 
Education Grants program supports regional to national scale projects 
in both formal and informal education and is intended to reach a wide 
variety of audiences. These grants support teacher professional 
development, instructional materials development and publication, 
citizen science programs, science camps, and exhibits related programs 
at science centers, aquariums and natural history museums around the 
Nation. As an example, this program supported the installation of 
Science on a Sphere (SOS) at the McWane Science Center in Birmingham, 
AL. Institutions such as the Dauphin Island Sea Lab are eligible for 
funding support from Competitive Education Grants and B-WET (see 
below). NOAA is requesting an increase of $4 million for a total of $5 
million in fiscal year 2010 to expand this program.
    Bay-Watershed Education and Training (BWET) Program.--The B-WET 
program supports local and regional projects that offer meaningful 
watershed educational experiences to K-12 students. The B-WET program 
currently serves Chesapeake Bay, California, Hawaii, Pacific Northwest, 
New England and Gulf of Mexico regions.
    NOAA's National Sea Grant Program.--Sea Grant's innovative and 
effective marine and aquatic education programs have been a cornerstone 
of the Agency's education portfolio and have produced a record of 
successes spanning three decades. An established network of Sea Grant 
educators, located at universities across the Nation, is committed to 
NOAA's goal of advancing environmental literacy and educating future 
environmental professionals and leaders. Sea Grant educators tailor 
their K-12 marine and aquatic education offerings to meet the needs of 
their regions, developing relevant science-based educational programs 
for schools, professional education opportunities for teachers, and 
workforce training. Last year, Mississippi-Alabama Sea Grant education 
efforts alone reached more than 11,000 elementary, middle and high 
school students and nearly 300 educators (attending professional 
development seminars). Nearly 28,000 attendees participated in programs 
for children and families in Mississippi and Alabama.
    National Estuarine Research Reserve System.--The National Estuarine 
Research Reserve System is a network of protected areas established for 
long-term research, education and stewardship. This partnership program 
between NOAA and the coastal States offers educational opportunities 
for students, teachers and the public. In Alabama, the Weeks Bay 
Reserve offers programs that encourage student interest in science and 
research. For example, The Baldwin County Grasses in Classes Program 
involves approximately 1,000 new students each school year in habitat 
restoration. Not only do the students take an active role in growing 
the plants for restoration, but they work side by side with 
environmental professionals from U.S. Fish and Wildlife, the Alabama 
Dept. of Conservation and Natural Resources, and Weeks Bay Reserve to 
implement the restoration projects. It is the hands-on, ``real 
science'' experience part of this program that excites the students. 
Each school year, over 3,500 K-12 students come to the Reserve for 
fieldtrips where they participate in a wide variety of grade specific 
hands-on activities outside.
    NOAA's Ocean Exploration and Research Program.--The Ocean 
Exploration and Research Program (OER) has a formal Exploration 
Education Alliance Partnership with Dauphin Island Sea Lab, supporting 
the professional development of Alabama educators of Grades 5-12. This 
curriculum is designed to bring the science of NOAA's deep ocean 
exploration and discovery, including the STEM (science, technology, 
engineering, and mathematics) disciplines that comprise it, into 
classrooms throughout the country.
    National Marine Sanctuaries Program.--The Office of National Marine 
Sanctuaries (ONMS) works with partner organizations, on location and in 
classrooms, to increase the interest of students and their teachers in 
natural science through field studies and hands-on environmental 
monitoring activities, such as Ocean for Life and LiMPETS, as well as 
workshops and in-class presentations (Rivers to Reefs, Coral Reef 
Classroom, Down Under Out Yonder, and MERITO (Multi-cultural Education 
for Resource Issues Threatening the Ocean)). ONMS also reaches out to 
classrooms across the United States to engage students through 
innovative use of the world-wide web (Encyclopedia of the Sanctuaries, 
ONMS Media Library, social media, ACES: Animals in Curriculum-based 
Ecosystem Studies and other online curricula) and telepresence 
(OceansLive!, MONITOR and Thunder Bay National Marine Sanctuaries 
telepresence centers, and theme missions), bringing the ocean and its 
sciences into their classroom.
    NOAA's Teacher at Sea Program.--The Teacher at Sea Program provides 
a unique environment for learning and teaching by sending kindergarten 
through college-level teachers to sea aboard NOAA research and survey 
ships to work under the tutelage of scientists and crew. The valuable 
skills and knowledge that teachers acquire are then brought to the 
classroom. NOAA's Teacher at Sea Program has supported 52 teachers from 
the Gulf States and 2 from Alabama. As an example, on June 9, 2009, 
Alabama middle school teacher, Ruth Meadows, will sail on NOAA Ship 
HENRY B. BIGELOW for two weeks. Opelika Middle School students will 
follow her adventure live on the web. Ms. Meadows will write weekly 
logs, take photos and video, and answer questions while on board the 
vessel. When she returns, she will create lesson plans about the 
science and teach her students and others in her local community.
    Educational Partnership Program (EPP).--The EPP program operates 
summer science training workshops for K-12 teachers to reach 
underserved student and teacher populations. Established under the 
auspices of five Minority Serving Institutions (MSIs), NOAA's 
Cooperative Science Centers (CSCs) are located around the country, 
including the southeastern portion of the United States. These CSCs act 
as educational change agents in their training and outreach activities 
for K-12 teachers and students with science content workshops for 
teachers and weather camps for students. EPP provides financial 
assistance, through competitive processes, to students and Minority 
Serving Institutions that support the training of students and research 
in NOAA mission sciences.
    National Ocean Science Bowl.--NOAA supports this national program 
that offers opportunities to encourage and engage students in learning 
more about science and scientific research. The National Ocean Sciences 
Bowl (NOSB) is an academic competition for high school students 
focusing on ocean science, technology and maritime history and policy. 
The program has 25 regional events around the country including the 
Hurricane Bowl, which includes schools from panhandle of Florida, 
Alabama, Mississippi and Louisiana.
    JASON Project.--The JASON Project is a program that uses technology 
to engage students in learning about science and technology by 
connecting them to explorers and explorations of our planet. The JASON 
Project engages students and their teachers through a variety of media 
and online experiences. NOAA works closely with the JASON Project to 
involve NOAA scientists in missions that explore aspects of Earth. 
JASON offers professional development to teachers who want to integrate 
this program into their classroom teaching.
    National Science Teachers Association Partnership.--NOAA has 
maintained a strong partnership with the National Science Teachers 
Association (NSTA), the world's largest science education organization. 
Through that partnership, opportunities are provided for teachers to 
have face-to-face learning as well as online seminars and resources. 
NOAA partnered with NSTA at the recent national conference in New 
Orleans in March 2009, providing science education updates and teaching 
materials to many teachers from coastal States.
    Other NOAA Education Efforts.--That NOAA also has several centers 
around the country that engage with the public, local schools and 
educational institutions. NOAA's Weather Forecast Office in Huntsville, 
Alabama developed a series of weather educational presentations using 
the NASA Digital learning network. The presentations were delivered via 
teleconferencing to 20 schools across the United States, training 
around 600 elementary and middle school students and teachers in the 
NWS Jetstream and Professor Weather curriculum.
    NOAA also manages several education websites, widely used by 
audiences across the country, containing tutorials, lesson plans, 
interactive activities and games, and a wealth of information about 
coastal ecology, weather, pollution, hurricanes, sea level, global 
positioning, tides and currents that teachers can incorporate into 
their classrooms. The Lesson Plan Library includes over 50 lessons that 
middle and high school teachers can use to supplement their mathematics 
and science curricula.
    Question. In December the NPOESS total life cycle cost estimate 
increased by $1 billion to $13.6 billion. The updated estimate 
reflected additional costs for the development of the Visible Infrared 
Imager. What degree of confidence do you have in the new cost and 
schedule estimates?
    Answer. The December 2008 life cycle cost estimate of $13.6 billion 
reflects an updated Acquisition Program Baseline (APB) signed in 2008. 
The cost estimate included an update to the operations and support 
costs of approximately $1.1 billion that was not part of the 2006 Nunn-
McCurdy certification. The estimate also included an increase of 
approximately $300 million of additional development costs due to 
program development challenges with Visible Infrared Imaging Radiometer 
Suite (VIIRS) and Cross-track Infrared Sensor (CrIS) sensors 
encountered to that point.
    Cost estimation for the NPOESS Program has followed the standard 
Department of Defense acquisition processes of estimating near the 50 
percent confidence level. This means the program has approximately a 50 
percent chance of successfully executing within budget. This confidence 
level has a higher level of risk of future cost growth than is now 
standard with NOAA programs and it is an issue we are exploring. NOAA 
policy now requires that budgets reflect estimates with a confidence of 
80 percent, which helps to ensure that a program has a high probability 
of remaining within its budget through the life of the program.
    Because of the importance of accurate budget planning, I have 
directed NOAA to work with the other NPOESS Executive Committee 
agencies, DOD and NASA, to develop an estimate at the 80 percent 
confidence level.
    Question. If you are confident tell us why since every other 
estimate has turned out to be grossly exaggerated.
    Answer. We recognize the importance of ensuring cost stability to 
the NPOESS program and are working with NASA and DOD to produce and 
evaluate alternative cost estimates. As noted, because of the 
importance of accurate budget planning, I have directed NOAA to work 
with the other NPOESS Executive Committee agencies, DOD and NASA, to 
develop an estimate at the 80 percent confidence level.
    Question. What is the level of risk to continuity of weather and/or 
climate data and what contingency plans are being considered?
    Answer. For the polar-orbiting satellites, the on-orbit and 
recently launched satellites are performing well and there is no 
immediate risk to data continuity for NOAA's weather and climate 
missions. We are concerned about the fragility of the constellation 
that begins to occur in 2013. This risk to data continuity occurs in 
the 2013 timeframe due to the schedule delays that the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) is facing.
    NOAA is placing highest priority on the acquisition of this system 
to mitigate this risk. NOAA will use data from NASA's NPOESS 
Preparatory Project (NPP) sensors to produce data that meet or exceed 
the data from NOAA-19 (our current operational satellite). We have 
plans in place to make operational use of the data from the NPP 
spacecraft by increasing the number of products NOAA had planned to 
generate from the NPP system as a risk reduction mission.
    NOAA has a contingency plan in the event there is a failure of any 
of its operational systems. This plan depends on using existing NOAA 
satellite assets, leveraging data from NASA and Department of Defense 
environmental satellites, and forging partnerships with international 
space agencies to acquire data needed to support NOAA's operational 
weather and climate mission. NOAA is also investigating opportunities 
to fly a mission with the legacy imager Advanced Very High Resolution 
Radiometer (AVHRR) in the event VIIRS continues to experience 
developmental challenges
    Question. Safe and sustainable seafood is vital to the U.S. economy 
and food security. The development of a sustainable marine aquaculture 
industry will provide jobs to a commercial fishing industry severely 
depressed by competition from imported seafood products. Our Nation 
should work to reduce seafood imports and ensure the viability of 
economically and culturally important water dependent communities. 
Realizing the potential benefits of marine aquaculture will address the 
environmental, engineering and production needs of the fledgling 
offshore marine aquaculture sector.
    What research, extension, and marketing programs will the 
Department of Commerce provide to foster development of a sustainable 
and diverse marine aquaculture industry while also protecting and 
strengthening independent and family-owned fishing operations?
    Answer. Research.--The Department of Commerce, through NOAA, has a 
number of competitive external grants programs available to fund marine 
aquaculture research, including the National Marine Aquaculture 
Initiative, the Small Business Innovation Research Program, and the 
Saltonstall-Kennedy Grant Program. NOAA funds internal marine 
aquaculture research at NMFS, OAR, and NOS science centers.
    NOAA's external and internal research funding supports a wide range 
of research topics, including: development of environmentally sound 
aquaculture practices for both finfish and shellfish, development of 
alternative feeds (e.g., substituting plant-based proteins for fish 
meal and fish oil), surveys to inform decisions on where to site 
aquaculture operations, stock enhancement to rebuild overfished and 
depleted species, and genetics and disease research.
    Extension.--NOAA's Sea Grant program combines research and 
outreach/extension efforts for marine aquaculture that have contributed 
to the creation of several new aquaculture-based industries. These 
industries include the Gulf of Mexico and South Atlantic soft shell 
crab industry, the Pacific Northwest oyster and clam industry, the 
hybrid striped bass industry, and the Mid-Atlantic hard clam industry. 
In addition, Sea Grant investments have helped to establish new 
businesses throughout the United States, and have provided improved 
technologies to these businesses. The combined impact of Sea Grant-
developed technology amounts to at least $100 million annually and 
supports thousands of jobs in the United States.
    Marketing.--The National Marine Fisheries Service operates the 
voluntary Seafood Inspection Program. This program is an outgrowth of 
the Agricultural Marketing Act of 1946 that provides voluntary 
inspection and certification program on a fee-for-service basis. This 
program offers a variety of professional inspection services which 
assure compliance with all applicable food regulations. In addition, 
product quality evaluation, grading and certification services on a 
product lot basis are also provided. Benefits include the ability to 
apply official marks, such as the U.S. Grade A, Processed Under Federal 
Inspection (PUFI) and Lot Inspection.
    In addition, some funding for marine aquaculture marketing programs 
has been provided through competitive grants programs.
    Question. Two Federal agencies have historically played significant 
roles in aquaculture, USDA and NOAA. What are the Department's plans to 
increase interagency collaborations among USDA, NOAA, EPA, NSF and 
others to provide a greater level of support to aquaculture?
    Answer. The primary nexus for inter-agency collaboration on marine 
aquaculture issues is the Joint Subcommittee on Aquaculture (JSA). The 
JSA was created by the National Aquaculture Act of 1980 and is chaired 
by the Secretary of Agriculture. The JSA operates under the auspices of 
the Executive Office of the President, Office of Science and Technology 
Policy. The JSA serves as the Federal interagency coordinating body to 
increase the overall effectiveness and productivity of Federal 
research, technology transfer, and assistance programs in support of a 
globally competitive, technologically advanced, and environmentally 
sound aquaculture industry in the United States. The JSA has three 
active working groups/task forces--the Working Group on Aquaculture 
Drugs, Vaccines and Pesticides; the National Aquatic Animal Health Plan 
Task Force; and the National Aquaculture Research and Technology Task 
Force. NOAA is active on the National Aquaculture Research and 
Technology Task Force and the National Aquatic Animal Health Plan Task 
Force, and represents the Department of Commerce on the JSA's Executive 
Committee.
    EPA and the Army Corps of Engineers (COE) both issue permit for 
marine aquaculture projects. NOAA, through both NMFS and OAR, works 
with both EPA and COE to provide technical review and advice on a range 
of marine aquaculture permitting issues. If NOAA is granted authority 
to issue permits for aquaculture operations in Federal waters (e.g., 
through national legislation or under existing mandates such as the 
Magnuson-Stevens Fishery Conservation and Management Act), NOAA will 
work with EPA and COE to coordinate regulatory roles and permit 
reviews.
    Question. According to NOAA data, the Southeast United States has 
experienced over 50 weather-related disasters over the past 28 years 
that resulted in losses of $1 billion or more. That's more than any 
other region of the country. In Alabama, severe weather has resulted in 
148 deaths, 1,723 injuries, and property losses of almost $5 billion 
over the past 18 years. Even a small reduction in the impact of severe 
weather could save many lives and billions of dollars.
    Are the current NOAA assets and infrastructure in the Southeast 
adequate to address the death, injuries and destruction caused by 
severe weather there?
    Answer. We agree the Southeast United States experiences a 
significant number of destructive severe weather events each year: and 
more than any of the other five NWS regions across the Nation. However, 
the United States in total experiences more severe weather events than 
any other country in the world. As such, severe weather is a national 
and not a regional issue. We believe current NOAA assets and 
infrastructure across the Southeast are adequate to address the severe 
weather regime. NOAA's severe weather statistics show NWS forecasts and 
warnings are meeting or exceeding the national GPRA goals.
    Currently, NOAA operates 122 Weather Forecast Offices (WFO) and 13 
River Forecast Centers (RFC). The Southeast (Mississippi, Louisiana, 
Alabama, Florida, Georgia, and South Carolina,) is home to 16 of the 
122 WFO's and 3 of the 13 RFC's (West Gulf RFC, Lower Mississippi RFC, 
and the Southeast RFC). NOAA's National Hurricane Center and its sister 
research lab (AOML/Hurricane Research Division) are physically located 
in the Southeast (Miami, Florida).
    To improve services for the southeast and elsewhere across the 
Nation, NOAA has begun the Hurricane Forecast Improvement Project to 
improve our forecasts of hurricane track, intensity and storm surge. We 
are also implementing dual polarization of our Doppler radars, which 
will improve the detection of severe weather and improve our warning 
accuracy. We are also engaged with the university research community 
and conduct our own research projects to improve our understanding of 
severe weather events to improve our warnings.
    Question. Although the Southeast experiences the worst weather in 
the Nation, NOAA labs and cooperative research programs are 
concentrated in other areas of the country. How can NOAA justify this 
misallocation of resources when it's clear the Southeast is the region 
most at risk?
    Answer. While our data shows the most severe storms and hurricanes 
impact the southeast, the Alaska region might argue they have 
consistently some of the worst weather in the Nation. NOAA labs are 
concentrated in areas with similar interests and to leverage expertise 
in the Federal, academic, and private sectors. The NOAA Severe Storms 
Research Laboratory and the Storm Prediction Center, with national 
forecast responsibility for severe storms, are collocated with the 
Norman Forecast office and the University of Oklahoma to leverage the 
synergy, capability, research, and knowledge that each component 
offers. NOAA's National Hurricane Center is located on the campus of 
the Florida International University and near its sister research lab 
(AOML/Hurricane Research Division) in Miami, Florida. Here, too, NOAA 
leverages expertise and synergy to improve understanding of the weather 
phenomena and improve services. NOAA has a Cooperative Institute for 
Marine and Atmospheric Studies (CIMAS) in association with the 
University of Miami and the NOAA facilities in Miami Florida. CIMAS 
focuses on Marine, ecosystem, and atmospheric research. In 2006, NOAA 
established the Northern Gulf Institute (NGI) at Stennis Space Center, 
Mississippi, in partnership with Mississippi State University.
    Question. Severe weather develops differently in the humid 
Southeast than in other areas. Would you agree that there is much more 
that can be done by NOAA in terms of research and planning focused on 
the unique weather of the Southeast that can help address these issues?
    Answer. As a science agency striving to constantly improve 
services, we agree more research can aid our understanding and 
prediction of severe weather events in the southeast and across the 
rest of the Nation as well. To help address this, the President's 
fiscal year 2010 Budget increases funding for research to improve 
severe weather forecasts, including funding to accelerate improvements 
in hurricane intensity and track forecasts.
    Question. Will NOAA support a long-term commitment to improve the 
infrastructure related to weather, climate and hydrology in the 
Southeast in order to reduce the number of deaths and injuries and the 
multi-billion dollar losses in the Southeast due to severe weather?
    Answer. NOAA has a long-term commitment to improve the 
infrastructure related to forecasting weather, climate and hydrology in 
the Southeast and elsewhere across the Nation to help protect life and 
property and enhance the economy. It is our mission and we look forward 
to working with Congress to attain our goals.
    Question. Can you provide an update on a proposal to NOAA by the 
University of Alabama in Huntsville to establish a NOAA Cooperative 
Institute for Remote Sensing on that campus? I know UAH has been 
working with NOAA for some time now on this proposed institute. This 
institute would take advantage of the world-class atmospheric research 
programs at UAH using satellite remote sensing.
    Answer. NOAA has been impressed by the University of Alabama in 
Huntsville (UAH) research programs, particularly its work in the area 
of air quality and remote sensing. NOAA's Cooperative Institute policy 
requires that each Cooperative Institute must be competed in a group 
competition. NOAA will continue to work with UAH as it plans its 
competition for new Cooperative Institutes.
    Question. What needs to be accomplished in order to make this 
institute a reality?
    Answer. NOAA has encouraged UAH to submit an application to any of 
NOAA's calls for Cooperative Institute competitions, either as the 
primary institute or in partnership with a primary institute. NOAA 
intends to issue a Federal Register notice in the summer 2009 
soliciting proposals for Cooperative Institutes.
    Question. Can you give me a timeline in which you think this 
institute could be accomplished?
    Answer. Establishment of a Cooperative Institute from the summer 
2009 request for proposals could occur as early as July 1, 2010.

                                  NIST

    Question. The Federal Information Security Management Act charges 
NIST with creating mandatory security standards for all non-classified 
Federal information systems. Our Nation's cyber infrastructure is 
facing a growing threat from Russian and Chinese hackers. Recent news 
accounts have brought up the real possibility of our Nation's power 
grid being brought down by these hackers. Given the seriousness of this 
threat, is the annual appropriation of approximately $25 million 
provided to NIST enough to address these threats?
    Answer. Cybersecurity is a major concern, and NIST plays a vital 
role in ensuring that our Federal systems are secure. NIST will support 
the research necessary to enable and to provide the cybersecurity 
specifications, standards, assurance processes, training and technical 
expertise needed to secure U.S. Government and critical infrastructure 
information systems. NIST must continue to work freely and openly with 
industry and internationally. NIST cybersecurity activities also need 
to be closely coordinated with national security and both domestic and 
international private sector cybersecurity programs. As NIST formulates 
future budgets, it will continue to place a high priority in the area 
of cybersecurity, consistent with NIST's mission and role.
    Question. The Administration has recently conducted a ``60-Day 
Review'' of all Federal cyber security systems. It was stated that this 
``review will develop a strategic framework to ensure that U.S. 
Government cyber security initiatives are appropriately integrated, 
resourced and coordinated with Congress and the private sector''. 
Because the Department of Commerce is responsible for several key 
aspects of Federal cyber security, can you share your thoughts on the 
review?
    Answer. The content of the Administration's ``60-Day Review'' has 
not yet been released.
    Question. The Smart Grid integrates digital information technology 
to transform the Nation's electric system into a dynamic system with 
improved reliability, security and efficiency. NIST is responsible for 
developing the standards framework associated with a future smart grid. 
As part of this effort you recently announced that you would chair a 
meeting with CEO's to begin the process for reaching agreement on smart 
grid standards. How else is NIST engaged with the private sector in its 
efforts to develop this framework?
    Answer. In addition to the CEO meeting, attended by 74 CEO's and 
public sector leaders from around the country, NIST, through its 
contract with Electric Power Research Institute, has organized a series 
of public workshops to engage the private sector in developing the 
framework. Approximately 430 representatives of electric utilities, 
electric industry manufacturers, IT and telecom providers, industry 
associations, standards development organizations, and universities 
participated in the April workshop. Over 680 Smart Grid representatives 
attended the May 19-20 workshop, and hundreds more are expected at the 
July 2009 workshop. A web-based collaboration tool is also being used 
to allow individuals and organizations who cannot attend the workshops 
to be informed of progress and submit comments.
    Question. NOAA and NIST play key roles in climate change. Mr. 
Secretary, there is a lot of talk about the need for a ``cap and 
trade'' program to reduce the growth in emission of green house gases. 
A ``cap and trade'' system is not the answer, but we do need to develop 
technologies that allow industries to produce with fewer emissions.
    As the Department charged with overseeing American industry, what 
are your plans for developing and adopting these technologies?
    Answer. NIST partners with U.S. industry in many ways to support 
and help it adopt technologies and other processes which lead to 
reduced energy consumption or the use of alternative energy sources to 
reduce carbon emissions. As an example, NIST works with manufacturers 
of continuous emission monitoring equipment to ensure measurement 
accuracy at the source. Such information enables the user to make more 
informed decisions about energy consumption, which can lead to reduced 
energy consumption.
    Further, NIST performs critical measurements and standards work in 
a variety of areas such as:
  --Smart Grid.--NIST is partnering with industry and other Federal 
        agencies to guide the standards development process which will 
        ensure interoperability of the Smart Grid and associated 
        devices. For example, smart meters, to which NIST measurement 
        science is fundamentally important, can have a positive impact 
        on consumption by informing consumers on the best time to use 
        energy.
  --Green Buildings.--NIST is working to provide the measurement 
        science that will enable the development, deployment, and use 
        of energy technologies useful to the building sector. For 
        example, the use of solid-state lighting, advanced building 
        materials and smart heating and air conditioning systems will 
        lead to more energy efficient buildings.
  --Alternative Energy.--NIST is working with industry to provide 
        metrology tools, techniques, and standards to enable the 
        evolution of energy technologies from pilot projects to full 
        commercial applications through the development of technical 
        infrastructure. For example, decreasing the cost of and 
        increasing the efficiency of solar energy will enable the shift 
        toward a larger U.S. share of the solar marketplace.
    The Hollings Manufacturing Extension Partnership (MEP) program 
works directly with small manufacturers to:
  --Reduce demand for electricity and fuel, reduce waste and 
        contaminants in the production process, and incorporate green 
        design in manufactured parts;
  --Help companies to identify opportunities for reducing the energy 
        footprint at all tiers of the production process;
  --Assist manufacturing companies (especially auto suppliers) in 
        market diversification efforts, to transition from supplying 
        declining industries to making components for growing 
        industries such as renewable energy providers and medical 
        devices;
  --Collaborate with renewable energy providers to identify new 
        technologies from Federal labs and universities (technology 
        scouting) and new suppliers (supplier scouting) to assist them 
        with increased production demands; and
  --Work with the Department of Labor to support the training needs of 
        workers and employers in ``green job training'' and in support 
        of the emerging energy efficiency sector.
    Question. Mr. Secretary, this Committee, as well as others, have 
dedicated billions of dollars over the last several years to improve 
radio interoperability for first responders. One of my priorities has 
been to ensure that a process exists that will make sure that these 
radio systems being purchased will work together, regardless of the 
manufacturer. I know that NIST has been one of the leaders in putting 
this program in place. Can you tell the Committee where we stand in the 
development of this program?
    Answer. The NIST Office of Law Enforcement Standards (OLES) and 
DHS' Office for Interoperability and Compatibility has built a 
coalition of public safety users and communications equipment 
manufacturers to create the independent Compliance Assessment Program 
(CAP), which allows Project 25 (P25) equipment suppliers to formally 
demonstrate their products' compliance with a select group of 
requirements by testing it in recognized labs.
    Test laboratories demonstrate their competence through a rigorous 
and objective assessment process, conducted by NIST/OLES and based on 
internationally accepted standards. The first batch of laboratory 
assessments began in December 2008 and continued through April 2009. 
During the ssessment, the NIST/OLES laboratory assessment team examined 
equipment, facilities, test reports, and the management system; 
observed demonstrations of testing; reviewed quality and technical 
records; and reviewed the credentials of staff to determine their 
competency in particular areas of expertise.
    On May 6, 2009, DHS/OIC recognized eight laboratories to conduct 
this equipment testing. P25 manufacturers will soon begin to submit 
their equipment through the testing process, and will release 
standardized summary test reports from these recognized laboratories, 
along with declarations of compliance. This documentation will be 
available on a publicly accessible website to help equipment purchasers 
make informed decisions. The response community will be able to select 
from multiple vendors that build innovative products according to the 
same standards. This documentation will serve to increase the public's 
confidence in the performance, conformance, and interoperability of P25 
equipment.
    Additional laboratories may continue to apply to the program and 
will continue to be assessed, further expanding the pool of 
laboratories that manufacturers may choose to test their equipment.
    Question. Also, how is the program being used by the various 
Federal grant agencies providing funds for interoperable communications 
equipment?
    Answer. A 6-month grace period provides equipment manufacturers and 
laboratories time to perform the necessary interoperability tests on 
equipment. After 6 months, equipment delivered to grantees receiving 
funds following SAFECOM grant guidance, which includes numerous Federal 
grant programs, will be required to have the supporting documentation.
    At this time, the following Federal grant programs are leveraging 
the P25 CAP:
  --DHS Interoperability Grants
  --NTIA PSIC Grants
  --COPS Interoperable Communications Grant Program
    In addition, NIST has been informed that all Department of Defense 
radio procurements will require compliance to the P25 CAP. This 
program, through grant guidance, provides a means of verifying that 
Federal grant dollars are being invested in standardized solutions and 
equipment that promote interoperability for the public safety 
community.
    Question. Mr. Secretary, we have been hearing that some first 
responders, especially firefighters, are having some issues with the 
new digital radio systems. Apparently, these new digital radios don't 
work as well as the older systems when there is loud background noise. 
As I understand it, your people at the Public Safety Communications 
Research program in Boulder are working on this issue. Can you tell me 
what you have found to date and what is being done to address the 
issue?
    Answer. When a firefighter's life is in danger, the ability to 
communicate a call for help and to warn others is essential. However, 
some background noises created by firefighting equipment, such as 
chainsaws and personal alert safety systems (PASS), can interfere with 
digital communication. Sometimes this interference is so severe that it 
can prevent a firefighter and the person talking with them from 
understanding each other at the most critical moments. To understand 
how background noise affects voice communications and to determine what 
technology improvements are needed to overcome any background noise 
issues, NIST/OLES has worked with practitioners to develop and 
implement tests that measure how digital radios operate in the presence 
of loud background noise.
    NIST designed and conducted subjective listening experiments that 
enabled quantification of the performance issues being reported in the 
field. Disseminating this information will ensure that voice 
implementations by manufacturers will meet the operational needs of 
public safety officials. NIST worked directly with fire departments to 
obtain high-quality recordings of typical firefighting noise and 
partnered with practitioners from various agencies to conduct numerous 
tests with three different communications systems in nine different 
noise environments. NIST has identified immediate behavioral, 
procedural, and technical steps agencies can take to avoid or minimize 
emergency response background noise.
    A technical report was published in June 2008 describing the 
testing and results. The report, which is available at 
ww.its.bldrdoc.gov/pub/ntia-rpt/08-453/, notes that in some 
environments analog radios performed better than digital radios and 
explains that in some environments no radios performed well. This 
report is supplemented by a July 2008 report from the International 
Association of Fire Chiefs, which recommends operational changes for 
fire agencies using digital radios. The IAFC report is available at 
www.iafc.org.
    Since issuing the June 2008 report, NIST/OLES has begun a second 
round of audio quality testing with practitioners that will continue to 
inform our understanding of this audio quality problem. Additionally, 
this second round of testing will identify potential areas that could 
be improved in order to mitigate the problems being reporting by 
firefighters.
    Question. Mr. Secretary, the recent National Academies of Science 
(NAS) report was a sobering assessment of the state of forensic science 
in this country. There is no doubt we have to make some serious 
improvements. Looking at the report, it is obvious that the authors see 
your Department, especially NIST, as a key element in forging 
improvements in forensic science in the United States. What steps is 
the Department of Commerce taking to fulfill the leadership role NIST 
is being called upon to provide to the government to help improve 
forensic science in this country?
    Answer. In anticipation of the publication of the NAS report 
entitled Strengthening Forensic Science in the United States--A Path 
Forward, NIST undertook plans to engage other Federal agencies with 
forensic science programs. Also, a NIST scientist was a member of the 
NAS Committee that worked on this report. The NIST Office of Law 
Enforcement Standards Forensic Science Program is already working with 
other forensic science agencies to address the NAS recommendations: to 
develop standards and validate forensic science protocols; to conduct 
research and development of improved forensic science technologies; to 
develop interoperability of automated fingerprint identification 
systems; and to identify strategies to mitigate contextual bias in 
impression evidence analysis.
    Further, in collaboration with the National Institute of Justice, 
NIST has begun a working group focused on Human Factors in Latent Print 
Analysis to study human errors in latent fingerprint testing. NIST has 
impaneled several dozen experts from Federal, State and local crime 
laboratories, and statisticians and psychologists from academia, to 
evaluate and reduce contextual bias in fingerprint analysis. Finally, 
NIST is working closely with OSTP to address the NAS recommendations at 
the Federal level, and maintains frequent dialog with State and local 
crime laboratories, academia and the private sector to implement 
improvements in forensic science in the United States.

        CENSUS--CHANGES TO DECENNIAL CENSUS IN FISCAL YEAR 2009

    Question. Over the past year we have witnessed the decision by the 
Census to revert to a paper census, rather than continue forward with 
using handheld computers for non-response follow up. This has raised 
the total cost of the 2010 Census to $15 billion. There is still time 
for further issues to emerge that could drive this cost even higher. 
This is an effort that gets highlighted to the public once every 10 
years, but has been almost a decade in planning with less than 
spectacular execution of cost saving improvements. Please provide what, 
if any, significant changes have occurred to plans for the Decennial 
since the beginning of the fiscal year?
    Answer. Other than the expansion from the American Recovery and 
Reinvestment Act (ARRA) for program enhancements to our partnership and 
outreach/advertising efforts and the Coverage Follow-Up activities 
(designed to help find and resolve situations where respondents were 
unsure who to include on their questionnaire), no significant changes 
to plans have occurred since the beginning of the current fiscal year. 
As to issues or unexpected events that might yet emerge and have a 
large cost impact on the census, such as a much lower than anticipated 
mail response rate, or a major natural disaster, we have included 
contingency funding in both the fiscal year 2009 amended budget and the 
fiscal year 2010 President's Budget Request. These contingency funds 
are part of the estimated lifecycle total of $14.7 billion.
    Question. Have the budget and schedule estimates that Census has 
been using for the 2010 Census been an adequate forecast of the actual 
costs we now see for the Census?
    Answer. We have made changes to our budget and schedule estimates 
over the decade as a result of testing results, program decisions, 
revised operational plans, and the like. Given that our actual plans 
for 2010 Census operations must be finalized, and funding requests 
made, nearly 2 years in advance of operations, it is always difficult 
to predict how external events and conditions might affect things 
during implementation. For example, when we prepared our staffing, 
budget, and schedules for the Address Canvassing operation now 
underway, we could not have forecast the current economic conditions, 
or how those conditions might affect such things as our ability to 
recruit and retain the workforce needed for that operation. We will now 
examine the results of the Address Canvassing operation to determine 
whether we might need to make changes to budget and schedule 
assumptions for future field operations. At this time, we believe we 
have the funds necessary to conduct the 2010 Census.
    Question. How have the funds provided in the stimulus been used to 
mitigate problems that have emerged as we move toward the 2010 Census?
    Answer. $250 million of the funding from the ARRA is being used for 
program enhancements to our partnership and outreach/advertising 
efforts to minority communities and hard-to-reach populations, and to 
enhance our Coverage Follow-Up activities (designed to help find and 
resolve situations where respondents were unsure who to include on 
their questionnaire). The increased funding for partnership and 
advertising will help us maximize the mail response rate next year, and 
thereby reduce the need to conduct expensive personal visit follow-up 
to non-responding households. One of our largest risks for the 2010 
Census is a mail response rate lower than our budgeted rate of 64 
percent--we estimate that each 1 percentage point change in the mail 
response rate will require an additional $80 $90 million in costs to 
visit the non-responding addresses, and there also are numerous 
logistical challenges if we must recruit and train a significantly 
larger workforce than planned.
    Question. For the activities related to the 2010 Census, the bureau 
will hire hundreds of thousands of temporary workers in a short period 
of time. The Census initially relies on the FBI to screen potential 
employees and then the Census Bureau conducts further follow up 
reviews. In the last Census, 930,000 applicants, around 25 percent of 
the total, were flagged by the FBI. Many of these jobs require going 
door to door in order to get the information required for the 2010 
Census. I am concerned about the safety of the public as they are asked 
to open their doors by representatives of the government. How can the 
public be assured of their safety when, according to the 2000 Census 
data, there is a 1 in 6 chance that the person at the door has a record 
that has been flagged by the FBI?
    Answer. The Census Bureau has no data to support the assertion that 
1 in 6 enumerators may have a criminal history record. The Census 2000 
Census Hiring and Employment Check (CHEC) System data does show that 25 
percent of applicants were identified through the FBI's name-based 
screening process as having a potential criminal record. However, after 
manual review, 312,544 applicants (approximately 8.6 percent of 
applicants) were determined to be potential matches to criminal history 
records that showed significant arrests.
    These applicants were not hired. Rather, these applicants were 
notified by letter and advised that if they wanted to be considered for 
employment they must either provide fingerprints to allow a fingerprint 
search of FBI records, or provide court records indicating that the 
criminal history noted was resolved. Approximately 93 percent of those 
applicants with potential matches did not respond to this letter and 
were listed as unavailable for hire.
    For Address Canvassing and other 2009 field operations, the Census 
Bureau is fingerprinting all hires at their first day of training, as 
an additional security check. Their fingerprints are electronically 
submitted to the FBI for identification and the results are returned to 
the Census Bureau electronically. So far, the turnaround time for this 
process has been approximately 24 hours. The Census Bureau will use 
this experience to determine whether fingerprinting will be carried out 
for 2010 field operations.
    If there is no match to the submitted identifiers, these employees 
are cleared for field work. If the submission results in a match, the 
CHEC Office will flag the case for manual review, and the employee's 
work will be suspended until a final decision is made. If after review 
the employee is deemed to be a potential risk, they will be offered the 
opportunity to provide mitigating information. If after manual review 
the employee is determined suitable for continued employment, they will 
be placed back in active status and will be given additional work.
    Question. What criteria does the Census use to determine if an 
applicant's past criminal history disqualifies them for employment?
    Answer. The criteria for the CHEC program are designed to identify 
those applicants who, based on their criminal history background, 
present an unacceptable risk to the process of gathering information 
for the Decennial Census. In the course of making determinations on 
applicants based upon the criteria established for this purpose, the 
Census Bureau is mindful of the delicate balance between hiring persons 
of the highest integrity to represent the government and the need to 
hire quickly an unusually large workforce for positions to perform 
limited information gathering duties for periods of 6 weeks or less.
    At the same time, the Census Bureau realizes that those who are 
hired will, even if for a limited period, represent the Census Bureau 
and the government and, in that capacity, will be invited into private 
homes and communities for the purpose of collecting information. Thus, 
we follow the general guidelines below to ensure that each applicant is 
an acceptable risk to collect census information from residents of a 
community as a representative of our government.
    Most FBI rapsheets do not list the final criminal justice 
dispositions; therefore, applicants will be asked for official court 
documentation showing the final outcome of any arrest(s) that contain 
the following:
  --manufacturing/sale of any controlled substance
  --breaking & entering
  --burglary
  --robbery
  --embezzlement
  --grand theft
  --violent crimes against person or property (includes assault, 
        battery, kidnapping, manslaughter, vehicular manslaughter, 
        murder, arson)
  --crimes against children
  --sexual offense (includes sexual harassment, sexual misconduct, 
        sexual assault, rape, statutory rape)
  --weapons charge (includes carrying concealed weapon, possession of 
        illegal weapon, sale of firearms)
  --terrorism
  --any pattern of arrests (3 or more arrests in the last 15 years)
  --any arrest within the last 36 months
    A conviction for the above offenses will likely disqualify an 
applicant for employment. However, this list is not all-inclusive; 
there may be additional types of offenses for which a conviction 
depending on the date, severity, and nature of the offense, may render 
an individual unsuitable for hire.
    Question. What qualifications do those that screen potential hires 
have for making evaluations about the safety of the public?
    Answer. Census Hiring and Employment Check (CHEC) Office senior 
staff worked on the 2000 Census, and since that time they have been 
responsible for the suitability reviews of low-risk fulltime FTEs at 
the Census Bureau's Headquarters and Regional Offices. The USDA 
Graduate School trains all staff in Office of Personnel Management 
Suitability Standards.
    Temporary staff are comprised of experienced law enforcement 
professionals, such as retired police officers, and are familiar with 
suitability evaluations. Additionally, all adjudicators were given 
extensive in-house system training and completed an FBI training course 
on criminal history records and adjudication procedures.
    Question. Address canvassing is one of the most critical operations 
for the success of the Decennial Census. It is the process by which the 
Census identifies all of the potential places of residence for sending 
2010 Census forms. The canvassing will also include the use of hand-
held computers to set GPS markers for each address that will further 
inform States as they begin the process of redistricting for their 
representation in the House of Representatives. In light of the 
management challenges facing the 2010 Census, did AdCan operations 
begin on schedule?
    Answer. Yes. Moreover, the field listing for the Address Canvassing 
operation began in eight offices on March 30, one week ahead of 
schedule. Some listings were completed prior to March 30 as part of 
training sessions.
    Question. What have the early results been with the hand-held units 
and when will Census complete its quality assessment of Address 
Canvassing operations?
    Answer. The handheld computers are generally working well. We have 
experienced several issues that required immediate resolution. 
Corrective steps were put in place, and work is continuing on or ahead 
of schedule.
    The Address Canvassing Quality Profile, which reports on results 
from the Quality Check operation, is scheduled to be completed by the 
end of November 2010. The Address Canvassing Assessment, which is a 
broad review on the entire Address Canvassing operation, is scheduled 
for completion in August of 2010 and an assessment of the Address 
Canvassing automation is scheduled for February 2011.
    Question. During these field operations, are census workers 
collecting significantly more addresses than initially identified by 
the Geography Division at the start of address canvassing?
    Answer. Early indications based on preliminary review and 
processing of the Address Canvassing results have not shown anything 
significantly beyond our expectations. Until the Address Canvassing 
operation is complete and all data processed, it will be difficult to 
assess what the final address count will be.
    Question. Based on your current collection progress, how accurate 
and complete will the results of address canvassing be?
    Answer. We do not have any mechanism to independently measure the 
accuracy of the address list following address canvassing. However, as 
part of our overall address list development program (which also 
includes updates from the U.S. Postal Service and from local, State, 
and tribal governments), we are confident the Address Canvassing 
operation is helping us ensure the most complete address file possible 
for the 2010 Census. For Address Canvassing, we have a quality control 
(QC) operation in place to check the quality of each lister's work to 
ensure they are following procedures (and to re-train them, or re-do 
their work, if necessary). We also conduct a quality check for each 
assignment area to ensure the overall canvassing results are of 
acceptable accuracy. It would be prohibitively expensive to conduct a 
QC check large enough to ensure 100 percent accuracy for all 
assignments--the QC operation we have in place is designed to ensure 
that the average critical error rate does not exceed 8.1 percent.
    Question. At this time, is address canvassing running on schedule, 
behind schedule, or ahead of schedule?
    Answer. Overall, Address Canvassing work throughout the country 
continues on or ahead of schedule. As of May 27, 96 percent of 
Assignment Areas (AAs) have completed all phases of the Address 
Canvassing operation, including the Quality Check, as compared to the 
established goal of 65 percent.
    Question. Are there specific areas that will finish earlier than 
expected?
    Answer. Yes, at this time, it appears that some Local Census Office 
areas will finish earlier than scheduled.
    Question. If significant national or local problems are identified 
as this activity progresses, what are the contingency plans for 
correcting the problems and has the Census estimated the range of costs 
for ensuring this activity is properly carried out?
    Answer. Given how well the operation has gone to-date, our 
contingency planning efforts have shifted focus from plans to replace 
the Address Canvassing operation now underway, to focus on a county-
level review of the Address Canvassing results to determine if special 
efforts are needed in selected areas. Until the completion of Address 
Canvassing and the county-level review, we won't know if contingency 
efforts will be necessary, and if so, their scope. However, contingency 
planning efforts are ongoing. As part of that effort, we are assessing 
the potential cost impacts but do not have estimates available at this 
time.
    Question. As I mentioned in my opening remarks, I am concerned 
about the potential for politicizing the 2010 Census. Our citizens do 
not deserve to be shortchanged because of manipulation of the results 
from the Census. Provide a detailed description of what role the White 
House is playing in the execution of the 2010 Census, including the 
person at the White House the Census must report to, and that person's 
role in directing Census activities?
    Answer. Secretary Locke has made explicit his commitment to the 
need for independence of the Census Bureau Director, that the Director 
will report to him, and that the White House has assured him that they 
have no interest in politicizing the census.
    Question. How is the Census ensuring that the integrity of the 2010 
Census data is not manipulated for political gain?
    Answer. The Census Bureau and its leadership have long recognized, 
and insisted upon, the need for statistical information of all types to 
be independent of partisan politics. If the information we produce is 
in any way considered to be manipulated by such influences, the 
credibility of the data, and of the Census Bureau, will be lost, and 
difficult (if not impossible) to restore. A key to ensuring this 
integrity is, and always has been, the Census Bureau's commitment to 
openly sharing its plans, methods, findings, and decision criteria with 
all stakeholders.
    Question. I was alarmed when I discovered that the Census had plans 
for using ACORN as a partner in the 2010 Census. ACORN employees have 
been found to be fraudulently registering voters for elections. Given 
ACORN's political history, I feel that the Census Bureau should not 
partner with organizations that have shown systemic problems with both 
accuracy and legitimacy. What is the Department of Commerce and Census 
Bureau doing to ensure that groups, such as ACORN, are adequately 
investigated prior to their involvement in something as important as 
the 2010 Census?
    Answer. The goal of the Census Bureau's partnership program is to 
combine the strengths of State, local, and tribal governments, 
community-based organizations, faith-based organizations, schools, 
media, businesses and others to ensure an accurate 2010 Census. These 
governmental and private sector businesses and organizations know their 
local conditions and circumstances better than the Census Bureau and 
have the connections in the local community to encourage and mobilize 
participation in the census. Partners are not Census Bureau employees 
and have no responsibility for counting, collecting, or processing 
census data.
    The selection of 2010 Census partners is extremely important. While 
not Census Bureau employees, partners are advocates for census 
cooperation and participation. During partnership training, detailed 
information is given to partnership specialists about the type of 
partners the Census Bureau should and should not seek partnership 
agreements with. Prior to obtaining a formal partnership agreement, 
partnership specialists also research potential partners and meet with 
them to learn more about the support and outreach activities the 
organizations can provide to help ensure an accurate count of their 
constituents.
    Census Bureau staff at the regional and national level use the 
following guidelines and criteria when identifying potential 2010 
Census partners.
    Select partner organizations that:
  --Promote the goals of the Integrated Communications Campaign to:
    --Increase mail response,
    --Improve accuracy and reduce the differential undercount, and
    --Improve cooperation with enumerators.
  --Reach and motivate households and individuals, particularly those 
        who live in hard-to-count areas.
  --Have communications vehicles designed to reach their members and/or 
        constituents.
  --Agree to take ownership of the outreach process to their members 
        and/or constituents.
  --Have influence and respect in their community.
  --Are viewed as ``trusted voices'' by their community.
    Do not select partner organizations that:
  --Are not trusted or are viewed negatively within the community, such 
        as a company or organization located within an African American 
        community that has a negative reputation for mistreatment of 
        African Americans or other population groups.
  --Produce products that may create a negative connotation for the 
        Census Bureau, such as sexually related products.
  --Could distract from the Census Bureau's mission.
  --May make people fearful of participating in the census, such as 
        groups that espouse violence or hate-crimes or extreme anti-
        immigrant views.
    Partnership specialists are trained to consult with management if 
they are in doubt about the choice of an organization or corporation as 
a 2010 Census partner. When expressing concerns to management about a 
potential partner, the staff member outlines the concerns that caused 
them to doubt the validity of a potential partner organization choice. 
We fully utilize the expertise and experience of regional management 
staff and Regional Directors during this process, since they know best 
the organizations that will or will not resonate with the hard-to-count 
populations in their regions.

                      ITA EXPANDING U.S. EXPORTING

    Question. Our long-term economic growth and job creation must 
include an exporting component. In recent years, exports have only 
accounted for 12 percent of our GDP. In fact, we export less than many 
of the major G-20 nations. Yet I hear that there are often long wait 
times for U.S. businesses who have asked the International Trade 
Administration for help breaking into new markets or for help to get 
started in exporting. I also understand that the number of people you 
have in ITA has been declining and it appears as if your budget is 
relatively flat for export promotion activities. What can the 
Department and ITA do to help more U.S. firms begin exporting and to 
further expand our Nation's exporting capabilities?
    Answer. ITA plays an important role in creating and sustaining 
high-paying jobs through export assistance, especially for small and 
medium-sized businesses, and market access and advocacy support to 
ensure fair trade. ITA's efforts are focused on increasing the number 
of American exporters and on increasing the number of markets to which 
American firms export. The Commerce Department, as the chair of the 
interagency Trade Promotion Coordinating Committee (TPCC), also has the 
lead role in ensuring that all U.S. export promotion programs and 
resources are deployed in a strategic and effective manner. I will work 
to ensure that the Department's export promotion programs, and those of 
the TPCC member agencies, maximize the competitiveness of U.S. 
businesses in the global marketplace. In the months ahead, I will be 
consulting with other TPCC agencies to develop a strong set of national 
priorities for boosting U.S. exports.
    Question. Mr. Secretary is there currently a hiring freeze at the 
Foreign Commercial Service (FCS)?
    Answer. No, but US&FCS has implemented hiring restrictions to 
ensure that budgetary resources go where they are most needed.
    Question. Can you tell us how long this has been in effect and what 
is the amount of their estimated budget shortfall?
    Answer. These hiring restrictions have been in effect since October 
2008. We anticipate that ITA will be able to manage effectively within 
its budgetary resources.

                              NTIA--ICANN

    Question. Mr. Secretary, the responsibility for managing the ever 
expanding universe of Internet domain names used to be handled by the 
Department of Commerce, but is now handled by the Internet Corporation 
for Assigned Names and Numbers (ICANN) under a memorandum of 
understanding with the Department called the Joint Partnership 
Agreement, or ``JPA.'' ICANN has been very open about its desires to 
terminate the JPA, which would effectively sever its ties to the U.S. 
Government.
    Do you believe ICANN is ready to manage its responsibilities for 
global Internet protocol address allocation and root zone management 
for the Domain Name System (DNS) on its own?
    Answer. The Department of Commerce remains committed to preserving 
the security and stability of the Internet's domain name and addressing 
system (DNS), and any decision with respect to the future of the JPA 
will be consistent with that goal. NTIA released on April 24 a Notice 
of Inquiry (NOI) seeking comments on these issues. The public record 
developed through this process will inform any decision made about the 
JPA's future, and the Department looks forward to working with Congress 
on this important issue.
    Question. If ICANN is allowed to completely sever its ties to the 
U.S. government, how will we ensure that the voices of U.S. businesses 
(and the U.S. government, for that matter) are heeded in ICANN decision 
making?
    Answer. It is very important for U.S. business to have a voice in 
ICANN decision making. Regardless of whether the JPA is terminated, 
modified, or extended, NTIA will continue to be an active participant 
in ICANN by representing the United States government in ICANN's 
Governmental Advisory Committee (GAC) as well as filing comments, as 
needed, in ICANN's various public consultation processes. In addition, 
the Department's relationship with ICANN will continue, as ICANN 
currently performs the Internet Assigned Names Authority (IANA) 
functions under contract to the Department.
    Question. Who would ICANN then answer to?
    Answer. ICANN is a United States not-for-profit organization that 
coordinates the Internet DNS. As such, it answers to its Board of 
Directors and the stakeholders that participate in its bottom-up policy 
making process, including the GAC on which NTIA represents the United 
States government.
    Question. What evidence is there that ICANN will take U.S. 
interests and concerns seriously, since there is some question as to 
whether they have done this even while operating under the auspices of 
the JPA?
    Answer. NTIA recently released a NOI soliciting comment on these 
issues, specifically on whether there are sufficient safeguards in 
place to ensure that all stakeholder interests are adequately taken 
into account in ICANN's decision-making processes. The Department 
expects to work with Congress to ensure that these important issues are 
satisfactorily addressed.
    Question. Are you aware that ICANN's budget--which is funded 
through fees set entirely by ICANN--has grown at an annual compound 
rate of 34 percent since 1999? (In stark contrast, the budget of the 
Department of Commerce which grew at about 4 percent annually during 
that same period).
    Answer. Under the terms of the JPA, the Department of Commerce 
reviews ICANN's performance to ensure completion of the JPA tasks. The 
Department of Commerce also provides expertise and advice on certain 
discrete issues (such as processes for making the root server system 
more robust and secure). The Department does not exercise oversight in 
the traditional context of regulation and plays no role in the internal 
governance or day-to-day operations of the organization or its budget.
    Question. Do you know why ICANN has required such dramatic funding 
increases year after year?
    Answer. The continual growth of the domain name market (i.e., 
increases each year in the number of domain names registered) has 
resulted in an increase in ICANN's budget, because a significant 
portion of the budget is comprised of fees paid by registry operators 
to ICANN.
    Question. Are you aware that its Executive Director made close to 
$1 million, including benefits, in 2007?
    Answer. The Department is aware. However, under the terms of the 
JPA, the Department of Commerce's role is limited to reviewing ICANN's 
performance to ensure completion of the JPA tasks. The Department also 
provides expertise and advice on certain discrete issues (such as 
processes for making the root server system more robust and secure). 
The Department of Commerce does not exercise oversight in the 
traditional context of regulation and plays no role in the internal 
governance or day-to-day operations of the organization, including 
issues such as executive compensation.
                                 ______
                                 

           Questions Submitted by Senator George V. Voinovich

                 EDA--PEER REVIEWED EVALUATION PROCESS

    Question. In 1998, Congress established a peer review, performance 
evaluation system for the allocation of funds under EDA's University 
Center Economic Development Program. However, in 2004, EDA imposed a 
regular competition for resources distributed through the program. The 
frequent competitions have resulted in unpredictable funding levels, 
making it difficult for universities to make long-term commitments.
    What are your views on the peer-reviewed evaluation process for 
this program versus a competition?
    Answer. Section 506 of the Public Works and Economic Development 
Act requires EDA to evaluate performance: ``To determine which 
university centers are performing well and are worthy of continued 
grant assistance under this act, and which should not receive continued 
assistance, so that university centers that have not previously 
received assistance may receive assistance.''
    We believe the Congress' insight into the program was visionary and 
this requirement for competition has made the program a much stronger 
economic development resource for America's distressed communities. 
Judging by the robust competition that occurs annually, we believe the 
section has served its purpose well and helps ensure that additional 
institutions of higher education do indeed obtain the opportunity to 
compete (this year's competition is being conducted in the Atlanta and 
Seattle regional offices). This section already requires EDA to include 
peer review in its evaluation of the university centers. We think the 
requirement to include at least one other university center in the 
evaluation strikes the right balance of ensuring input by a peer into 
the evaluation, but at the same time ensuring that the final evaluation 
is conducted by career EDA professionals responsible for oversight of 
the program.
    It is important to note that university centers that wish to 
undertake larger or longer-term projects may apply and compete for 
traditional Economic Adjustment Assistance grants.
    Question. The EDA has a local match requirement of 50 percent for 
its grants. This requirement helps ensure local commitment to projects, 
and I certainly support it. However, current regulations allow EDA to 
reduce the local match in some cases. Given the current economy, would 
you support giving the Assistant Secretary broad flexibility to reduce 
matching requirements?
    Answer. As you have stated, current regulations allow EDA to reduce 
the local match requirement. Any decision to reduce the matching 
requirement is based on the relative needs of the area in which the 
project will be located and is assessed on a case by case basis. This 
process has been very effective and the current regulations allow the 
flexibility needed to make these determinations.
    Question. As part of its fiscal year 2009 appropriations, EDA was 
directed to increase its efforts to hire staff at both the regional and 
local levels. Can you please provide details on the agency's staff 
levels in its six regional offices, including field-based economic 
development representatives?
    Answer. EDA's regions have 3 vacancies out of their 122 permanent 
positions. One of these vacancies is due to a recent retirement in the 
Philadelphia Regional Office, and the position is in the process of 
being advertised. For the remaining two vacancies in the Seattle 
Regional Office, offers have been made to candidates. All 19 field-
based economic development representative positions have been filled.

                        USPTO--STOP! INITIATIVE

    Question. I have long been a champion of strong intellectual 
property rights enforcement and outreach. President Bush established 
the Strategy Targeting Organized Piracy (STOP!) initiative, a good deal 
of which was coordinated with and operated out of the Department of 
Commerce. I worked with my colleagues to give this initiative a 
permanent structure as part of the PRO-IP Act (Public Law 110-403). 
More recently, I joined Senators Leahy, Bayh, and Specter in a letter 
to President Obama urging him to appoint the Intellectual Property 
Enforcement Coordinator (IP Coordinator).
    Can you describe what steps the Department of Commerce is taking to 
transition the institutional knowledge related to the STOP! initiative 
to the office of the IP Coordinator?
    Answer. The USPTO, through its Office of Intellectual Property 
Policy and Enforcement (OIPPE), worked very closely with Mr. Chris 
Israel, the former U.S. Coordinator for International Intellectual 
Property Enforcement. As an important part of the interagency team 
charged with implementing STOP, the USPTO was instrumental in 
spearheading three separate programs that fall under the general STOP 
initiative: (1) establishing the STOP toll free hotline; (2) posting IP 
experts in U.S. embassies in countries/regions where intellectual 
property protection and enforcement remain a challenge; (3) IP public 
awareness and outreach programs targeting small and medium sized 
companies (for full description of these initiatives, see response to 
question no. 71). All of these initiatives are fully established and 
have become important components of the STOP initiative. The USPTO is 
drafting briefing materials providing background on the development, 
maintenance and continuation of these programs, which will be provided 
to the new IP Coordinator, at his/her request. In addition, the USPTO 
is considering new ways to gauge and improve the effectiveness of these 
programs, and looks forward to sharing these thoughts with the IP 
Coordinator. The USPTO looks forward to being an integral part of the 
IP Coordinator's efforts, and to closely working with the IP 
Coordinator to fulfill his/her duties.
    Question. What specific efforts does the Commerce Department intend 
to undertake related to IP enforcement, and educating American 
companies about the need to protect intellectual property when 
conducting business abroad?
    Answer. The Department of Commerce is taking a wide variety of 
actions related to IP enforcement and educating American companies 
about the crucial importance of protecting their intellectual property 
rights when conducting business abroad.
    To avoid an overly voluminous response here, the following is 
merely a listing by category of the types of IP enforcement efforts and 
educational outreach efforts that the Department is already 
undertaking:

Capacity Building/Technical Assistance
    Year-round IP enforcement training programs--for foreign and 
domestic judges, prosecutors, police, IP-Office officials and others--
at the USPTO's Global Intellectual Property Academy (GIPA), located in 
Alexandria, Virginia. In 2008 alone, GIPA provided training to more 
than 4,100 officials from 127 countries on a variety of topics, 
including IP protection and enforcement, and technology transfer.
  --Programs customized to the needs of a particular country.
  --Regional programs, such ashosting an APEC/ASEAN enforcement 
        conference in June in Malaysia, and is co-sponsoring a 
        companion APEC/ASEAN enforcement conference in July, in Hawaii.

IPR Attaches
    A key IP enforcement effort over the past several years has been 
the placement of IPR Attaches in key regions around the world. The 
USPTO, FCS, and State have worked cooperatively to post six attorney-
advisor intellectual property experts in: Bangkok, Thailand; New Delhi, 
India; Beijing and Guangzhou, China; Moscow, Russia; and, Sao Paulo, 
Brazil.
    These IP attaches provide expertise to U.S. embassies and 
consulates on IPR issues, advocate U.S. intellectual property policies, 
coordinate training on IPR matters, and assist U.S. businesses that 
rely on IPR protection abroad

Promoting Strong IPR Enforcement In and Through International 
        Agreements
    The Department, through the USPTO, ITA and other bureaus, provides 
support to the State Department and USTR, assisting in rafting, 
negotiating and implementing the intellectual property provisions of 
free trade and other international agreements. These provisions 
generally require U.S. trading partners to provide stronger, more 
effective protection for intellectual property than is required under 
the World Trade Organization's Trade Related Aspects of Intellectual 
Property Rights (``TRIPs'') Agreement.
    In 2008, the Department participated in post Free Trade Agreement 
(FTA) implementation discussions and/or follow-up talks with several 
countries, including Peru and Costa Rica.
    The Department also supports USTR efforts for Trade and Investment 
Framework Agreements (TIFA) negotiations in various countries such as 
Nigeria and Indonesia, as well as in negotiating the Anti-
Counterfeiting Trade Agreement (ACTA), where the objective is to 
negotiate a new, state-of-the art agreement to combat counterfeiting 
and piracy.

Public Awareness Efforts
            STOP
    Through the USPTO, the Department manages a hotline (1-866-999-
HALT) that helps small-and medium-sized businesses (SMEs) leverage U.S. 
government resources to protect their intellectual property rights in 
the United States and abroad. In fiscal year 2008, the Hotline received 
1,289 calls, including calls regarding counterfeiting and piracy 
concerns with respect to China and other countries.
    The Department also maintains the www.stopfakes.gov website, which 
provides in-depth information about the STOP initiative. A key feature 
of the website is the country-specific ``toolkits'' that have been 
created by our overseas embassies to assist SMEs to understand the 
business environment and how to protect and enforce their rights in a 
particular country. There are now 16 toolkits, including toolkits for 
the BRIC countries.
    The USPTO also established the www.stopfakes.com/smallbusiness 
after a study revealed that only 15 percent of 1,000 small businesses 
that do business overseas are aware that a U.S. patent or trademark 
provides protection only in the United States.

Public Outreach
    The Inventor's Assistance Program, run by the USPTO, reaches out to 
inventors and entrepreneurs to educate the public about the importance 
of intellectual property by hosting educational conferences, creating 
and posting computer based training modules, and posting pod casts on 
I-tunes. In addition the Office conducts live on-line chats, has 
established a mailbox for inventor questions, and has an 800 number to 
answer questions. There is also an Inventors Resource page within the 
USPTO web site that has ``plain language'' content for the public.
    The Department, through the USPTO, offers ``IP Basics'' conferences 
throughout the U.S., targeting SMEs where participants learn what 
intellectual property rights are, why they are important, and how to 
identify, protect and enforce these rights.
    Separately, the Department, through the USPTO also offers China 
intellectual property-focused programs in various cities throughout the 
United States. These programs are directed to SMEs that either are in 
China or are thinking about going to China or, for that matter, any 
SME--because many are not aware of the threat of IP theft from other 
countries and how surreptitiously it can occur.
    In 2009, the USPTO is expanding its China-related event to include 
intellectual property issues in India.
    The U.S. Export Assistance Center (USEAC) programs, run by the 
Department's U.S. & Foreign and Commercial Service (US&FCS), provide 
personalized assistance to small and medium-sized businesses in various 
cities throughout the United States.
    In fiscal year 2008, the USPTO entered into a Memorandum of 
Understanding (MOU) with the U.S. Minority Business Development Agency 
to provide education to the minority businesses as well as the 
directors for the MBDA offices and business centers. The USPTO also 
works closely with the U.S. Department of Interior, specifically, the 
Indian Arts and Crafts Board (IACB) and the Bureau of Indian Affairs 
(BIA), to help educate Native American artists and craftspeople on 
intellectual property issues as well as intellectual property theft 
from other countries. Starting in fiscal year 2007, the USPTO began to 
operate its USPTO STOP Booth, an information booth, at the 
International Music Products Association (NAMM) bi-annual trade shows 
to wide acclaim by both the NAMM Board and music product manufacturers.

                      ITA--PROMOTING U.S. EXPORTS

    Question. Exports are an important part of Ohio's manufacturing 
economy. As governor of Ohio, I led nine Ohio trade missions abroad, 
which were designed to open markets for Ohio products. I know that the 
U.S. Commercial Service serves as a resource to many small and medium-
sized companies that want to export.
    Can you describe the Department's strategic plan on how the 
Commercial Service resources will be used to promote U.S. exports given 
the constraints on existing personnel?
    Answer. The U.S. & Foreign Commercial Service (US&FCS) is a 
critical part of the International Trade Administration. US&FCS will 
continue to ensure that U.S. companies, particularly small and medium-
sized businesses, benefit from global trade. Through US&FCS's current 
global network of trade professionals in 109 U.S. locations and in 127 
offices located in 77 countries, US&FCS staff will continue to work 
with U.S. companies, providing counseling and advocacy, market 
research, trade events, and identification of potential international 
buyers or partners. US&FCS will maintain its program focus on three 
priorities: increasing the number of U.S. companies that export; 
helping smaller companies expand to new export markets; and helping 
exporters overcome hurdles in foreign markets.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

                                  NOAA

    Question. Secretary Locke, the President's budget request 
eliminates the Pacific Coastal Salmon Recovery Fund, and proposes a new 
nationwide competitive grants program to recover all endangered and 
threatened marine species. But as you know from your time as Governor 
of the State of Washington, salmon recovery is a complex issue.
    Can you tell me about NOAA's plans moving forward to ensure 
adequate funding for recovery of Pacific Coast salmon?
    Answer. On May 21st, the Administration sent a budget amendment to 
the hill that contains language that allocates $50 million to the 
Pacific Coastal Salmon Recovery Fund. In fiscal year 2010, program 
increases are provided to implement the Pacific Salmon Treaty (+$16.5 
million) and develop advanced tools for managing salmon (+$7 million), 
amounting to a total of $159 million in NOAA to support Pacific salmon. 
Also, nearly $170 million was provided in the Recovery Act to restore 
coastal habitat, particularly in locations where there are listed 
species. Areas with Pacific salmon are competing for those grants.
    Question. Mr. Secretary, the Mitchell Act hatchery program was 
created in 1938 and funds hatchery activities in the Lower Columbia 
River. As you may be aware, the Hatchery Scientific Review Group 
recently released a report calling for hatchery reform efforts in the 
Columbia Basin. A key part of these reforms would be centered around 
Mitchell Act hatcheries, which have been flat funded for several years.
    What plans do you have to move forward on the much-needed 
modernization and reform of Mitchell Act hatcheries?
    Answer. I am familiar with the important contribution made by the 
Mitchell Act to recreational, commercial, and tribal fisheries in the 
Northwest, as well as to fulfilling expectations under our Pacific 
Salmon Treaty with Canada. It is critical that the hatchery facilities 
supported by the Mitchell Act sustain fisheries in a manner that is 
consistent with the Endangered Species Act (ESA). The Hatchery 
Scientific Review Group recently called for measures that would 
accomplish our joint goals of maintaining fisheries while meeting ESA 
objectives.
    NOAA Fisheries is working with the Washington Department of Fish 
and Wildlife, the Oregon Department of Fish and Wildlife, the Yakama 
Indian Nation and the Fish and Wildlife Service (the operators of the 
facilities) to manage funding opportunities in order to implement many 
of these recommendations. More implementation measures are planned for 
the future. The fiscal year 2010 funding request for Mitchell Act 
hatcheries is $ 16.5 million, within which further hatchery reform 
measures will be implemented.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:08 a.m., Thursday, April 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
